<html>
<title> - EDUCATION REFORM IN PENNSYLVANIA</title>
<body><pre>[Senate Hearing 107-654]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-654
 
                    EDUCATION REFORM IN PENNSYLVANIA
=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                     MAY 13, 2002--PHILADELPHIA, PA

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______








                       U. S. GOVERNMENT PRINTING OFFICE
81-688                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
ERNEST F. HOLLINGS, South Carolina   ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HARRY REID, Nevada                   JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        MIKE DeWINE, Ohio
                           Professional Staff
                              Ellen Murray
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                              Erik Fatemi
                       Bettilou Taylor (Minority)
                        Mary Dietrich (Minority)
                    Sudip Shrikant Parikh (Minority)
                       Candice Rogers (Minority)

                         Administrative Support
                             Carole Geagley





                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Hon. Chaka Fattah, U.S. Representative from 
  Pennsylvania...................................................     1
Statement of Hon. Robert Brady, U.S. Representative from 
  Pennsylvania...................................................     2
Statement of Hon. Mark S. Schweiker, Governor, Commonwealth of 
  Pennsylvania...................................................     2
    Prepared statement...........................................     4
Statement of Hon. John F. Street, mayor, Philadelphia, PA........     6
    Prepared statement...........................................     8
Statement of Hon. Charles B. Zogby, secretary of education, 
  Commonwealth of Pennsylvania...................................    11
    Prepared statement...........................................    12
Prepared statement of councilwoman Donna Reed Miller, city of 
  Philadelphia, PA...............................................    22
Statement of Hon. Robert Brady...................................    22
Statement of James E. Nevels, Chair, school reform commission, 
  Philadelphia City School District..............................    23
    Prepared statement...........................................    25
Statement of Vicki Phillips, superintendent, Lancaster School 
  District.......................................................    26
Statement of Dr. Kenneth R. Kitch, superintendent, Steelton-
  Highspire School District......................................    27
    Prepared statement...........................................    29
Statement of Rosalind Jones-Johnson, director of education 
  issues, Philadelphia Federation of Teachers Health and Welfare 
  Fund...........................................................    29
    Prepared statement...........................................    30
Statement of Benno C. Schmidt, Jr., chairman of the board of 
  directors, Edison Schools......................................    32
    Prepared statement...........................................    33
Statement of Abdur-Rahim Islam, president and CEO, Universal 
  Companies......................................................    42
Statement of Wendell A. Harris, parent, north academic area 
  representative for the Philadelphia Home and School Council, 
  board member of the Parent Union for Public Schools, and member 
  of the steering committee, Philadelphians United to Support 
  Public Education...............................................    43
Statement of Stephanie Oliver, student, University City High 
  School.........................................................    45
Statement of Christina Rivera, student, Mastbaum High School, 
  Philadelphia, PA...............................................    45
Statement of Margaret Levy, parent of two and entrepreneur, 
  Philadelphia, PA, Federation of Teachers.......................    46





                    EDUCATION REFORM IN PENNSYLVANIA

                              ----------                              


                          MONDAY, MAY 13, 2002

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                  Philadelphia, PA.
    The subcommittee met at 9:45 a.m., in room 653, City Hall, 
Philadelphia, PA, Hon. Arlen Specter presiding.
    Present: Senator Specter.

               OPENING STATEMENT OF SENATOR ARLEN SPECTER

    Senator Specter. Good morning, ladies and gentlemen. The 
Appropriations Subcommittee for Labor, Health and Human 
Services, and Education will now proceed. Today, we will be 
inquiring into the historic arrangements which have been made 
between the Commonwealth of Pennsylvania and the city of 
Philadelphia in an innovative approach to the Philadelphia 
School System, which has 264 schools. Some 42 of those schools 
will now be taken over by other entities in an effort to 
improve the educational process.
    At the outset I compliment Pennsylvania's Governor, Mark 
Schweiker, and Philadelphia's mayor, John Street, for their 
initiative in undertaking this very, very challenging and 
controversial matter. The Philadelphia schools have more than 
200,000 students. The State of Pennsylvania has some 3,247 
public schools and 501 school districts, and a significant 
number of these are in a category which needs some assistance.
    The Federal Government's contribution to education in 
America is in excess of $51 billion, and increased last year by 
some $6 billion, and we were able to get a special allocation 
from the Appropriations Committee last year of $20 million, 
which was directed at the State. As is the practice in the 
State of Pennsylvania, they then made that allocation directly 
to the City of Philadelphia.
    My opening statement is going to be abbreviated, because we 
have a very distinguished panel to start with, and an extensive 
number of witnesses. I appreciate the presence here today of 
two Members of Congress, and in order of seniority I would turn 
next to the distinguished Congressman Chaka Fattah.
STATEMENT OF HON. CHAKA FATTAH, U.S. REPRESENTATIVE 
            FROM PENNSYLVANIA
    Mr. Fattah. Let me thank the senior Senator from the great 
Commonwealth of Pennsylvania for convening this very important 
hearing, and I want to expressly thank him for his leadership 
and the additional resources that were made available to our 
schools in last year's appropriations process.
    I serve on the Appropriations Committee, and it was only 
through his leadership that those dollars were made available, 
and his continuing concern, and this hearing is another example 
of that, so I will shorten my opening statement also so we can 
get to the panelists, and I want to thank Senator Specter and 
his staff for arranging such a superb list of witnesses so we 
can delve into these issues about what is going to happen to 
our schools here in Philadelphia, so thank you, Senator.
    Senator Specter. Thank you very much, Congressman Fattah.
    We will now turn to the distinguished Congressman Bob 
Brady. I just leaned over to confirm that in fact Chaka was 
senior, and with Bob's customary humility he said, I do not 
mind being junior to anyone. I just want to get the job done.
    Congressman Brady.
STATEMENT OF HON. ROBERT BRADY, U.S. REPRESENTATIVE 
            FROM PENNSYLVANIA
    Mr. Brady. Thank you, Senator, and again thank you for 
conducting these hearings to get another good insight, and 
hopefully we can help our children, but I would just be remiss 
if I did not thank my Governor and my mayor for coming 
together.
    I had a very small part in hopefully bringing them together 
to try to get where we can get to keep our kids in school and 
to keep them adequately funded and to get a quality education, 
so again I thank them for working together, and hopefully to 
know they will continue to work together to try to get a 
tremendous task done, and again, Senator, thank you and my 
colleague, Chaka Fattah on the Appropriation Committee. You all 
know his background and his record on education, so we have all 
the tools we need to try to get what we need to get done to 
make sure our children do get a quality education.
    Thank you.
STATEMENT OF HON. MARK S. SCHWEIKER, GOVERNOR, 
            COMMONWEALTH OF PENNSYLVANIA
    Senator Specter. We now turn to the Governor of 
Pennsylvania, Hon. Mark S. Schweiker, sworn in as 
Pennsylvania's 44th Governor in October of last year, first 
elected to public office in 1979 as Middletown Township 
Supervisor, later served as Bucks County Commissioner, a 
graduate from Bloomsburg University with a master's degree from 
Rider University in New Jersey. Thank you for joining us, 
Governor Schweiker, and we look forward to your testimony.
    Governor Schweiker. Thank you, Senator Specter, and thank 
you, Representatives Brady and Fattah for the opportunity to 
visit and talk about what we all realize are important 
endeavors.
    Thanks for the opportunity also to discuss how we are 
improving education throughout Pennsylvania, and I would say 
the only State to offer grants directly to parents to help them 
help their children get individualized support to improve their 
reading and math skills, known as Classroom Plus, and the only 
State to offer tax credits to corporations that commit to 
funding scholarship programs to students, and at the same time 
we will talk about the efforts in Philadelphia schools as we 
weigh in on what we call the Education Empowerment Act.
    Senator, let me also extend my thanks to you for securing 
the $20 million that has already been mentioned that will be 
used throughout our Commonwealth and is sourced in the fund for 
the improvement of education. I assure you that money will be a 
tremendous help as we continue the effort to rejuvenate 
Pennsylvania's poorest performing school districts. Thanks 
again.
    Pennsylvania's historic Education Empowerment Act provides 
new management tools and extra money to turn around school 
districts where half or more of the children in grades 5, 8, 
and 11 are failing basic math and reading and our State's 
assessment test, commonly known as the PSSA. Twelve school 
districts are now on the State's empowerment list. Four of 
these districts, Clairton, Sto-Rox, Lancaster, and Steelton, 
already have seen significant 2-year academic gains thanks to 
hard work by teachers, administrators, and students.
    In Sto-Rox, 51.1 percent of its students scored below basic 
in reading and math between 1998 and 1999, a short time ago. 
Two years later, that number has dropped more than 12 points to 
38.9 percent. Lancaster and Steelton scores have improved by 
nearly 10 points, and Clairton has seen its scores improve by 8 
points. These districts are tangible proof, or offer tangible 
proof that the empowerment act is working.
    My new budget proposes $1.8 million to extend these 
powerful empowerment reforms to individual schools where 
children are struggling academically. This investment will 
build on the concept of empowerment districts, providing help 
building by building. I am also calling for an additional $75 
million to help in our ambitious and much-needed State-city 
partnership to turn around the Philadelphia School District.
    As you know, we are facing in Pennsylvania a revenue 
shortfall of $1.2 billion. We have our work cut out for us back 
in Harrisburg as we negotiate next year's budget, but the $75 
million for Philadelphia schools remains a top priority, and 
make no mistake, I will fight hard to see that it is included.
    At one time, Philadelphia's public schools were considered 
examples of what can be achieved through public education. The 
list of students who have gone on to become integral members of 
our society was and remains impressive, but somewhere along the 
way the system broke down. Administrators struggled to maintain 
the budget, teachers were not given the resources needed for 
their classrooms, students, unbelievably so, had to go to 
classes without textbooks. This is just a sample of the 
problems that are crippling the Philadelphia School District 
for more than a generation.
    My administration and the administration of Mayor Street 
are determined to not waste another minute in turning around 
this school district, and we are well aware of the challenge 
that lies before us. This is nothing less than the most 
aggressive and significant education renewal project in urban 
American history.
    With that in mind, Mayor Street and I worked together to 
form a stable Government to oversee this turnaround. In only 
its first few months, the School Reform Commission, or SRC as 
it is known, has moved expeditiously in putting together a bold 
turn-around plan that at long last will set this district on a 
course for success, and I want to take this occasion to 
acknowledge and thank the five men and women who comprise the 
SRC. An easy job it is not, but a more important job you will 
not find.
    Of course, this is an incredible challenge, but I sit here 
and remain confident that we will succeed. The people of 
Philadelphia want to see their schools as attractive centers of 
learning, places where their children can flourish in a safe 
environment with the technology and resources they deserve. To 
help in this turn-around, the SRC is working with some of the 
country's greatest experts in education to help run the 
district's lowest-performing schools. These schools can become 
partnership schools, overseen by local community groups and 
parents.
    We know this for sure. The SRC's bold efforts are doomed to 
fail if we do not have the support of parents and the backing 
of neighborhood groups. The SRC will also cut needless central 
office costs and put those savings directly into the classroom 
by next September, where they are needed the most. To do that, 
the SRC is eliminating 325 positions over the course of the 
summer that have been deemed unnecessary. The savings will 
amount to about $20 million. These are just the two early 
steps. The SRC has assured Mayor Street and I that the next 
ones will come quickly.
    For all of this to work, we need our teachers, 
Philadelphia's teachers. I know this has been a difficult time 
for them, with much uncertainty, but they should know this. The 
new resources, professional development, and safer schools that 
they have been craving are on the way. We want them to be a 
part of this renaissance.
    Now, I know that Mayor Street believes that the SRC is 
moving perhaps too fast. I know that he is concerned that we 
are being too aggressive. As I sit here today, less than 5 
months since the mayor and I entered into this new partnership, 
I will tell you and acknowledge, and respectfully so, as the 
gentleman, the mayor of Philadelphia is seated to my right, I 
will acknowledge we do have different viewpoints on this, but 
in my estimation the time has passed where we can merely tinker 
with the idea of reform.

                           prepared statement

    The schools have been broken for far too long. Let us move 
ahead. Let us all work together to give these Pennsylvania 
children a new and accountable school system that answers not 
only to the adults, but to them, Pennsylvania's children, 
Philadelphia's children. It is about time.
    Thank you so much, Senator Specter and Congressmen Fattah 
and Brady.
    Senator Specter. Thank you very much, Governor Schweiker.
    [The statement follows:]
               Prepared Statement of Hon. Mark Schweiker
    Good morning, Sen. Specter, Rep. Brady and Rep. Fattah. Thank you 
for the opportunity to discuss how we are improving education in 
Pennsylvania and in Philadelphia's schools through our Education 
Empowerment Act.
    I'd also like to extend my thanks to you Sen. Specter securing $20 
million for our Commonwealth from the Fund for the Improvement of 
Education. That money will be a tremendous help as we continue to 
rejuvenate Pennsylvania's poorest performing school districts.
    Pennsylvania's historic Education Empowerment Act provides new 
management tools and extra money to turn around school districts where 
half or more of the children in grades 5, 8 and 11 are failing basic 
math and reading in our state's assessment test, commonly known as the 
PSSA.
    Twelve school districts are now on the state's Empowerment List. 
Four of these districts--Clairton, Sto-Rox, Lancaster and Steelton--
already have seen significant two-year academic gains, thanks to hard 
work by teachers, administrators and students.
    In Sto-Rox, 51.1 percent of its students scored below basic in 
reading and math between 1998-99. Two years later, that number has 
dropped more than 12 points to 38.9 percent. Lancaster and Steelton's 
scores have improved by nearly 10 points and Clairton has seen its 
scores improve by eight points.
    These districts are tangible proof that the Empowerment Act is 
working.
    My new budget proposes $1.8 million to extend these powerful 
Empowerment reforms to individual schools where children are struggling 
academically. This investment will build on the success of Empowerment 
Districts, providing help building by building.
    I am also calling for an additional $75 million to help in our 
ambitious and much-needed state-city partnership to turn around the 
Philadelphia School District. As you know, we are facing a revenue 
shortfall of $1.2 billion in Pennsylvania. We have our work cut out for 
us back in Harrisburg as we negotiate next year's budget. But the $75 
million for Philadelphia schools remains a top priority, and I will 
fight hard to see that it is included.
    At one time, Philadelphia's public schools were considered examples 
of what can be achieved through public education. The list of students 
who had gone on to become integral members of our society was and is 
impressive.
    But somewhere along the way the system broke down. Administrators 
struggled to maintain their budgets. Teachers werent given the 
resources needed for their classrooms. Students, unbelievably, had to 
go to classes without textbooks.
    This is just a sampling of the problems that have crippled the 
Philadelphia School District for more than a generation.
    My administration and the Administration of Mayor Street are 
determined to not waste another minute in turning this school district 
around. And we are well aware of the challenge that lies before us: 
This is nothing less than the most aggressive and significant education 
renewal project in urban American history.
    With that in mind, Mayor Street and I worked together to form a 
stable government to oversee this turnaround. In only its first few 
months, the School Reform Commission, or SRC, has moved expeditiously 
in putting together a bold turnaround plan that, at long last, will set 
this district on a course for success. And I want to thank the five men 
and women who comprise the SRC. An easy job it is not. But a more 
important job you will not find.
    Of course, this is an incredible challenge, but I'm confident we 
will succeed. The people of Philadelphia want to see their schools as 
attractive centers of learning. Places where their children can 
flourish in a safe environment with the technology and resources they 
deserve.
    To help in this turnaround, the SRC is working with some of the 
country's greatest experts in education to help run the districts 
lowest-performing schools. These schools can become ``partnership 
schools,'' overseen by local community groups and parents. We know this 
for sure: The SRCs bold efforts are doomed to fail if we do not have 
the support of parents and the backing of neighborhood groups.
    The SRC will also cut needless central office costs and put those 
savings directly into the classrooms by next September where they are 
needed the most. To do that, the SRC is eliminating 325 positions over 
the course of the summer that have been deemed unnecessary. The savings 
will amount to $20 million.
    Those are just the first two steps. The SRC has assured Mayor 
Street and I that the next ones will come quickly.
    For all of this to work, we need our teachers--Philadelphia's 
teachers. I know this has been a difficult time for them, with much 
uncertainty. But they should know this: The new resources, professional 
development and safer schools theyve craving are on the way. We want 
them to be a part of this renaissance.
    I know that Mayor Street believes the SRC is moving too fast. I 
know that he's concerned that were being too aggressive. As I sit here 
today--less than five months since the Mayor and I entered into this 
new partnership--I'll tell you that we do have different viewpoints on 
this. But the time has passed where we can tinker with the idea of 
reform. These schools have been broken for too long. Lets all work 
together to give these Pennsylvania children a new and accountable 
school system that answers not to the adults--but to them. Its about 
time.
    Thank you.
STATEMENT OF HON. JOHN F. STREET, MAYOR, PHILADELPHIA, 
            PA
    Senator Specter. Next we have Hon. John F. Street, elected 
to Philadelphia City Council in 1979. I might say that I have 
watched his council career with some greater interest than 
usual, because he served with my wife Joan for some 16 years 
and served in council until 1999, when he was elected mayor of 
the City of Philadelphia.
    Mayor Street earned his bachelor's degree at Oakwood 
College in Huntsville, Alabama, and his law degree from Temple 
University. Actually, I had the opportunity to tour some of 
Philadelphia's streets with him on the drug problem a week ago 
yesterday, and we welcome you here, Mr. Mayor, and look forward 
to your testimony.
    Mr. Street. Thank you very much. Good morning, Senator 
Specter, Congressman Fattah, Congressman Brady. It is my 
pleasure to be here today, along with my partner, Governor 
Schweiker, in our efforts to improve the quality of education 
in Pennsylvania schools, especially in Philadelphia. I thank 
you for being here and providing us with the opportunity to 
share our views on improving the quality of education in 
Philadelphia, the Commonwealth, and the Nation.
    I especially appreciate all you do in advocating our city's 
interest, and most especially appreciate your recent efforts to 
secure $20 million in new Federal funding for all Pennsylvania 
empowerment school districts. No single issue is more important 
to this city, this Commonwealth, or this country than improving 
the quality of public education available to our children.
    Our Nation cannot afford the achievement gaps that now 
exist between groups defined by income, race, and geography. I 
commend President Bush and the members of the U.S. Congress for 
enacting this commitment to closing the gaps as our new 
national policy in the No Child Left Behind Act. True homeland 
security will be achieved only when all children are equal 
beneficiaries of the best public education America can provide.
    Today, we are too far from that ideal, with conditions in 
the Philadelphia School District that are common to too many 
school districts around the Nation, a high poverty student 
population, aged buildings, shortages of qualified teachers, 
and a chronic funding shortfall, but we have never used any of 
these obstacles as an excuse to do anything less than our very 
best to provide Philadelphia's young people with a more 
vigorous education and better results.
    In the mid-nineties, our public schools began a vigorous 
reform effort. The children achieving program incorporated many 
of the values and features of the No Child Left Behind Act, 
such as high academic standards, an emphasis on early literacy 
and teacher training, regular assessments and an accountability 
system centered on measuring schools against their own 
progress. This program was not exactly perfect, but it did 
produce results, especially on the Pennsylvania assessment, 
where Philadelphia students' gains have been significantly 
outpacing State averages.
    The Commonwealth even recognized that progress recently by 
awarding 95 Philadelphia schools performance awards for 
achievement and attendance increases. I would like to say that 
Philadelphia schools are not anywhere near as bad as our worst 
adversaries suggest, but Senator, they are not anywhere near as 
good as they need to be, and Governor Schweiker and I are 
determined to increase or improve the quality of education in 
our schools.
    When I became mayor, nearly 2\1/2\ years ago, we knew the 
district had built a better academic record. We also knew it 
was not enough. Moreover, the financial problems had reached 
crisis proportions that threatened to derail even the gains 
already achieved. In this context, we took every step possible 
to encourage and support continued improvement for our 
schoolchildren. These steps included installing excellent 
leadership at the district, negotiating a strong teacher 
contract, cutting $50 million in annual costs, and 
significantly expanding public school options by sponsoring a 
total of 39 charter schools.
    As the city government, we also took on more direct 
responsibilities for expanding services to children and 
families, especially after-school programs which have positive 
benefits for public school students. Most recently, we 
increased local funding for the school district by $45 million 
annually to fulfill the partnership agreement I reached with 
Governor Schweiker.
    A significant early step we took was passing the Education 
Empowerment Act proposed by then Governor Ridge. Philadelphia 
assembled a highly qualified and committed team of academic 
business and community leaders to prepare an improvement plan. 
The plan has been submitted for the record of this hearing. The 
plan calls for key actions such as reducing class size, 
developing a uniform curriculum, enhancing student discipline 
and school safety, including the use of technology and 
expanding accountability measures for low-performing schools.
    The Commonwealth Department of Education approved 
Philadelphia's empowerment plan in January of 2001. The 
district worked aggressively to implement its provisions, and 
has achieved many of the plan's milestones, including a drop in 
the student scoring in the bottom quartile on the PSSA from 
59.4 percent to 53.9 percent as of last spring. This still 
represents too many students struggling, but it is clearly a 
move in the right direction.
    Despite good intentions, however, our experience with 
empowerment is essentially one of unfulfilled expectations and 
unfinished business. Applicability of the empowerment process 
for Philadelphia was suspended both practically and legally 
when the school district's financial crisis prompted us to form 
a State-city governing partnership for the district in December 
of last year. Nevertheless, even during this transition period, 
the district's core educational program contains many elements 
of the empowerment plan, as the new School Reform Commission, 
in attempting to chart its course for the district, has already 
picked up on many of these themes.
    This experience is relevant to the enormous challenge to be 
faced by the State and the city in meeting the ambitious goals 
and requirements of the new Elementary and Secondary Education 
Act. I believe we have a head start, since many of the act's 
features, the concepts are familiar. Also, Congress appears to 
have included some of the elements that will help school 
districts to be successful, such as more time and money. 
Whether it will be enough remains to be seen. We hope that when 
all the regulations and details of No Child Left Behind are 
worked out, the final provisions will be realistic and 
flexible, particularly with regard to the measurement of annual 
yearly progress for schools.
    We also hope the entire process takes into account some of 
the important lessons we have learned from serious and 
sustained efforts to improve public schools. We have learned 
school reform must offer solutions that match real problems in 
the classrooms. It should build on what works, and be 
substantive, focused, and well-placed. Reform should build 
trust and confidence through fair and accurate assessments for 
all types of students, consistent measurement and 
accountability for all types of public schools, and independent 
public reporting.

                           prepared statement

    Realizing the new national vision of No Child Left Behind 
will take tremendous effort and cooperation by Federal, State, 
and local Government. In my view, it is impossible to run a 
local school district effectively without the active 
collaboration of local government. State and Federal policies 
should encourage these relationships, and recognize the 
frontline challenges we face, as well as provide the 
incentives, tools, and support that will help school districts 
do their very best to educate every child successfully.
    Thank you very much.
    Senator Specter. Thank you very much, Mayor Street.
    [The statement follows:]
               Prepared Statement of Hon. John F. Street
    Good morning Senator Specter and Members of the Senate 
Appropriations Subcommittee on Labor, Health And Human Services and 
Education. I welcome this opportunity to discuss the successes and 
challenges in our efforts to improve public education in Philadelphia. 
I especially appreciate that you are taking the time to learn about our 
experiences and those of other Pennsylvania Empowerment school 
districts as the federal government embarks on its own campaign, 
through the ``No Child Left Behind Act,'' to raise student achievement 
nationwide. Only by federal, state and local governments working 
together will be able to realize our common goal of providing every 
child with a first-class public education.
    Before I begin my remarks, I would first like to thank Senator 
Specter for his leadership in securing $20 million in new federal 
funding for Education Empowerment school districts in Pennsylvania. We 
are fortunate to be represented by such strong advocates as Sen. 
Specter and the members of our Congressional delegation. I understand 
that Philadelphia is slated to receive about $14 million from this 
appropriation, which will enable the School District to put in place 
some new and needed learning tools for our children.
    There is no single issue more important to this City, this 
Commonwealth or this country, than improving the quality of public 
education. Every child must have the opportunity for the education 
needed to succeed in the 21st century, an education that includes 
advanced literacy, mathematics and science skills, fluency in a foreign 
language and knowledge of world history and cultures, critical thinking 
and technology skills. Our nation cannot afford to sustain the 
achievement gaps that now exist between rich and poor children, between 
African-American and Hispanic and white youngsters, between urban and 
rural students and their suburban counterparts across this land.
    I commend President Bush and Members of the U.S. Congress for their 
determination to forge ahead and enact this commitment to closing the 
gaps as our new national policy. After the tragic events of September 
11, it might have been easy to let this slip. But if we learned 
anything from that horror, it must be that all lives are precious and 
only a top quality education for all children will keep this nation 
strong and free. Military operations overseas and enhanced security 
measures at home are essential national priorities to combat terrorism 
and keep the peace. But true homeland security will be achieved only 
when all children, regardless of race or economic status, are equal 
beneficiaries of the best public education America can provide.
    Today, we are too far from that ideal. The Philadelphia School 
District has conditions that are common to too many big city school 
districts: a high-poverty student population, often with very 
complicated family lives, aged buildings, shortages of qualified 
teachers, and a chronic funding shortfall which triggered the state 
takeover of our School District. But we have never used any of these 
obstacles as an excuse to use anything less than our best efforts to 
provide Philadelphia's young people with a more rigorous education and 
to work to obtain better results.
    Indeed, under the leadership of former Superintendent David 
Hornbeck, a vigorous school reform effort mirrored many of the values 
and features of the No Child Left Behind Act. High academic standards, 
an emphasis on early literacy, teacher training, expanded public school 
options, regular assessments, a pioneering accountability system 
centered on measuring schools against their own progress and public 
reporting of schools' performance were all components of the Children 
Achieving program.
    All parts of this program may not have been executed as well as we 
might have liked. But it got results. A recent study ranks 
Philadelphia's high school graduation rate at the top of the biggest 
city school districts. Over five years, standardized test scores have 
shown an overall increase, particularly in the early grades, with 
significant gains recorded in students who perform at basic and above 
(e.g. 58 percent for grade 4 in 2001). This positive movement occurred 
along with a substantial increase in the numbers of students 
participating in testing.
    On the Pennsylvania assessment, Philadelphia students' gains have 
been even more impressive, significantly outpacing state averages. The 
Commonwealth recognized this progress recently when it awarded 95 
Philadelphia schools a total of $4.7 million in performance funding for 
achievement and attendance improvements; that means we earned 23 
percent of the awards with just 12 percent of the State's students.
    When I became Mayor nearly two-and-a-half years ago, the academic 
progress underway at the School District was admirable, but we knew it 
was not enough. Moreover, the financial problems had reached crisis 
proportions and threatened to derail even the gains already achieved. 
In that context, City government consistently and persistently took 
every possible step to encourage and support continued improvement and 
progress for our schoolchildren.
    We appointed excellent leadership at both the Board and executive 
levels and developed a solid working relationship between my 
Administration and the School District.
    We negotiated a strong contract with the Philadelphia Federation of 
Teachers that offers more competitive salaries in exchange for 
significant education reforms including a longer school day and year.
    We streamlined the organization, returned teachers to the classroom 
and cut costs by $50 million, while maintaining our commitment to 
essential educational initiatives like reduced class size and summer 
school.
    We broadened public school options by increasing to 39 the number 
of operating charter schools, making Philadelphia a national leader in 
this arena.
    We pursued methods of collaborating to deliver public services more 
cost-effectively and greatly expanded the availability of City-
sponsored services for children and families, including behavioral 
health, truancy centers and recreation sites. Most notably, we are 
making a major investment in after-school programs, which have direct, 
positive benefits for public school students. And two weeks ago, the 
City launched Operation Safe Streets, aimed at wiping out the open-air 
drug trade in our neighborhoods. This initiative will have a profound 
effect on the well-being of our young people and create a more 
wholesome and welcoming environment in and around our schools.
    We increased the City's annual financial support for public schools 
by $45 million as part of the State-City partnership agreement I 
reached with Governor Schweiker to govern and support Philadelphia's 
public schools. While we do not agree on every issue, we continue to 
believe that this partnership offers the best prospects at this time 
for creating a better future for public education in our City.
    Shortly after taking office I went to Harrisburg to meet with then-
Governor Tom Ridge. Education was at the top of my agenda and enactment 
of the Pennsylvania Education Empowerment Act was at the top of his. 
Many Philadelphians were critical of this proposal because it appeared 
to require dramatic school improvement in too short a time period with 
insufficient resources to get the job done. While I shared those 
concerns, I decided to support the Act for three important reasons. 
First, I believe in accountability for public school performance. 
Second, the Act held out the promise of some State assistance and 
support to improve schools. Last, I believed it was in the best 
interests of this City to build a strong relationship with the Governor 
and his Administration on education and other issues. So I asked the 
Philadelphia legislative delegation to back the Empowerment Act, and 
with their support the General Assembly passed the law.
    Philadelphia took its responsibilities under the Act very 
seriously. Led by the Rev. Dr. William J. Shaw, our Empowerment Team 
included highly qualified and committed academic, business and 
community leaders. In a very short time period, our Empowerment Team 
identified best practices from around the country; engaged the 
community in their planning; and prepared a detailed School District 
Improvement Plan (submitted as part of the record for this hearing) 
that identified nine specific goals along with strategies for their 
achievement. Some of those goals include: reducing class size in the 
early years; developing and mandating a uniform curriculum based on 
state and local standards; maximizing instructional time for reading, 
math and science; enhancing school safety; better utilizing 
communications and instructional technology; and expanding 
accountability measures and interventions for low-performing schools.
    Philadelphia's Empowerment Plan was approved by the Commonwealth 
Department of Education in January of 2001. The School District worked 
aggressively to implement its provisions and has achieved many of the 
plan's milestones. Philadelphia was first assigned to the Empowerment 
list because 59.4 percent of students scored in the bottom quartile on 
the PSSA (Pennsylvania assessment) given in 1999. By 2001, the figure 
dropped to 53.9 percent. This still represents far too many students 
struggling, but it is also clearly a move in the right direction and on 
track with the requirements of the Empowerment Act. Our experience with 
the Act, however, is essentially one of unfulfilled promise and 
unfinished business, as some of the key resources needed to get the job 
done--sufficient expertise, money and time--have not been available to 
us.
    To begin with, the Empowerment process incorporated the good 
concept of providing school districts with access to a range of state 
and national experts for guidance and consultation during the planning 
and implementation processes. In practice, while the Commonwealth did 
appoint an Academic Advisory Team for Philadelphia, the availability of 
these experts proved to be extremely limited and sporadic. If this 
aspect of the process is better executed going forward, and it is an 
idea worth replicating on a national level, it could be a significant 
source of help and support for school districts struggling to succeed.
    The Empowerment Act provides grants to eligible districts to 
support implementation of their improvement plans. For Philadelphia, 
the amount, while helpful, was far less than the full estimated cost of 
the plan, and the funding stayed flat in the second year of 
implementation. Moreover, as currently structured, there is actually a 
financial disincentive to school districts to achieve their ambitious 
performance goals since removal from the Empowerment list would result 
in a loss of the annual grant. A far better approach would be to 
provide incentive funding that escalates with a district's performance.
    Timing is everything, and the applicability of the Empowerment 
process for Philadelphia was suspended both practically and legally 
when the School District's financial crisis prompted us to enter into 
the negotiations with Governor Ridge and Governor Schweiker that 
resulted in the State-City governing partnership for the District begun 
in December of last year. The Governor proposed a new school 
improvement plan for discussion and Pennsylvania's Distressed School 
Districts Law actually exempts Philadelphia from the accountability 
provisions of the Empowerment Act. Nevertheless, even during this 
period of transition, the School District's core educational program 
contains many of the elements of the Empowerment Plan. And the new 
School Reform Commission, in attempting to chart its course for the 
District, also has picked up on many of its themes.
    Meeting the ambitious goals and requirements of the new Elementary 
and Secondary Education Act will be an enormous--and essential--
challenge for the Commonwealth of Pennsylvania and the School District 
of Philadelphia. I do believe that we have a head start here since so 
many of the Act's features and concepts are familiar. We also will be 
helped by the fact that the Congress appears to have included in the 
Act some of the ingredients that will enable school districts to be 
successful--namely, more time and more money. Whether it will be enough 
remains to be seen. Both time and money will be needed to put an end to 
the inequities in public education and give children a fair chance to 
perform. It also will take considerable resources to provide the 
breadth of quality public school options envisioned in the Act.
    I understand that there are many details yet to be worked out in 
the implementation of ``No Child Left Behind.'' We hope that the final 
provisions are realistic and flexible, particularly with regard to the 
measurement of ``annual yearly progress'' for schools. We also hope 
that the entire process takes into account some of the important 
lessons we have learned from serious and sustained efforts to improve 
public schools.
    We have learned that sensible school reform must offer solutions 
that address actual problems. Reform should build on what works and 
replace what doesn't. We also have learned that reform requires some 
risks, but the reform should be focused and well-paced. We should not 
get caught up in structure and process and forget the very real needs 
and perspectives of the children and adults who are the ``objects'' of 
the reform and whose behaviors reformers are seeking to change.
    It is also imperative that reform builds trust and confidence. Fair 
and accurate student assessments for all types of students (i.e. 
including English language learners and children with disabilities), 
consistent measurement and accountability for all types of public 
schools and independent public reporting are essential elements of any 
true school reform.
    I will close with my starting point: realizing the new national 
vision of ``No Child Left Behind'' will take tremendous effort and 
cooperation by federal, state and local government. In my view, it is 
impossible to run a local school district effectively without the 
active collaboration of local government. State and federal policies 
should be encouraging these relationships and understanding the ``front 
line'' challenges we face, as well as providing the incentives, tools 
and supports that will help school districts do their best to educate 
every child successfully.
    Thank you.
STATEMENT OF HON. CHARLES B. ZOGBY, SECRETARY OF 
            EDUCATION, COMMONWEALTH OF PENNSYLVANIA
    Senator Specter. We now turn to the Pennsylvania Secretary 
of Education, Charles Zogby, who served as Governor Ridge's 
policy advisor prior to his appointment in June of last year. 
He has a bachelor's degree from St. Lawrence University, and a 
law degree from George Mason University. Thank you for joining 
us, Mr. Secretary, and we look forward to your testimony.
    Mr. Zogby. Thank you, Senator, thank you, Congressman 
Fattah and Congressman Brady. Good morning. Thank you for the 
opportunity to talk about public education reform in 
Pennsylvania. Pennsylvania's efforts to improve education 
during the past 7 years have been nothing less than 
extraordinary, at times historic.
    Today we meet in the city that exemplifies the magnitude of 
our accomplishments. Thanks to an unprecedented partnership 
between Governor Schweiker and Mayor Street, the Philadelphia 
School District is on the brink of groundbreaking reforms that 
will offer our children real hope for a quality education and a 
brighter future.
    The President's sweeping new, No Child Left Behind Act 
promises some of the most dramatic education reforms in a 
generation. We applaud the President and you, Senator Specter, 
and the leadership of the Congress for enacting this bold 
reform plan and for your dedication to our children. We embrace 
the President's new law, because it embodies the fundamental 
principles of education reform, accountability, higher 
education standards, measuring and rewarding results, and a 
commitment to ensure that all of our children learn, regardless 
of where they live or go to school.
    If we are optimistic about the President's new reforms and 
their success, it is only because many of these same ideas are 
already working and making a difference in Pennsylvania. We 
believe accountability drives higher performance. 
Pennsylvania's reforms work because they hold schools, parents, 
and students accountable for performance and give them the 
support they need to succeed.
    Two years ago, Pennsylvania created the Education 
Empowerment Act to give failing school districts new management 
tools to improve their schools and extra money to put those 
ideas into place. We added a strong dose of accountability, 
real consequences if schools do not improve.
    The results speak for themselves. Nine of the 12 
empowerment districts on our empowerment list have shown 
academic improvement. Four have made dramatic gains in test 
scores. Two of these districts which, Senator, will be on your 
next panel, Steelton Highspire and Lancaster, are close to 
coming off the list altogether. Four other districts, 
Philadelphia, Chester-Upland, Harrisburg, and Duquesne, are in 
the midst of dramatic and unprecedented reform initiatives.
    No doubt the empowerment act shows early success, but 
thousands of Pennsylvania children remain trapped in schools 
that are failing, although their school districts are not. It 
is time to empower these schools and to improve and to hold 
them accountable if they do not. That is why Governor Schweiker 
has proposed this year to extend the powerful reforms of the 
Education Empowerment Act to individually failing schools.
    Last year, Pennsylvania launched a ground-breaking 
initiative to empower parents to help their children achieve. 
We know our children's success in school depends upon a good 
foundation in reading and math. If our students do not master 
these skills early, it could jeopardize the rest of their 
education. Pennsylvania's new Classroom Plus tutoring grant 
program helps third through sixth graders who need it no matter 
where they go to school. Classroom Plus offers $500 directly to 
parents of children who are struggling in reading and math to 
get them the extra help they need and to get them back on 
track.
    Every child needs and deserves a great teacher. 
Pennsylvania raised the bar of achievement for teachers by 
requiring higher GPA's, more coursework in their subject areas, 
and ongoing professional training. We also give our teachers 
the tools they need to succeed.
    Pennsylvania's new professional development assistance 
program, our teacher assessment program, assesses our teachers' 
collective strengths and weaknesses so that school district can 
better target professional development where the needs are 
greatest. We also made it easier for teachers to access State-
offered professional development courses. They are online, and 
they are free of charge.

                           prepared statement

    President Bush's No Child Left Behind Act promises 
wonderful new opportunities to improve public education in 
America. In Pennsylvania, we believe the President's reforms, 
coupled with our own efforts, will bring a quality education to 
all of our children.
    Thank you.
    [The statement follows:]
                 Prepared Statement of Charles B. Zogby
    Senator Specter, Congressman Brady, Congressman Fattah: Good 
morning, and thank you for the opportunity to talk with you about 
public education in Pennsylvania.
    Pennsylvania's efforts to improve education during the past seven 
years have been nothing less than extraordinary--at times historic. 
Today, we meet in a city that exemplifies the magnitude of our 
accomplishments. Thanks to an unprecedented partnership between the 
Governor and Mayor Street, the Philadelphia School District is on the 
brink of groundbreaking reforms that will offer our children real hope 
for a quality education and a brighter future.
    The President's sweeping new No Child Left Behind Act promises some 
of the most dramatic education reforms in a generation. We applaud the 
President and the Congress for your leadership in enacting this bold 
plan and for your dedication to our children. We embrace the 
President's new law because it embodies our fundamental principles of 
education reform: accountability, high academic standards, measuring 
and rewarding results, and a commitment to ensure all our children 
learn--regardless of where they live or go to school. We are optimistic 
that the President's new reforms will succeed because we see the same 
ideas already working in Pennsylvania.
    We believe accountability drives higher performance. Pennsylvania's 
reforms work because they hold schools, parents and students 
accountable for performance--and give them the support they need to 
help them succeed.
    Two years ago, Pennsylvania created the Education Empowerment Act 
to give failing school districts new management tools to improve their 
schools and extra money to put those ideas in place. We added a strong 
dose of accountability--real consequences if the schools dont improve. 
The results speak for themselves. Nine of the 12 districts on our 
Empowerment List show academic improvement. Four have made dramatic 
gains in state test scores. Two of these districts--Steelton-Highspire 
and Lancaster--are close to coming off the list altogether. Four other 
school districts--Philadelphia, Chester, Harrisburg, and Duquesne--are 
in the midst of unprecedented reform initiatives.
    No doubt, the Empowerment Act shows early success. But thousands of 
Pennsylvania children remain trapped in schools that are failing, 
although their school districts are not. It's time to empower these 
schools to improve and to hold them accountable if they do not. That's 
why Governor Schweiker proposes this year to extend these powerful 
reforms into individually failing schools.
    Last year, Pennsylvania launched a groundbreaking initiative to 
empower parents to help their children achieve. We know our children's 
success in school depends on a good foundation in reading and math. If 
our students don't master these skills early, it could jeopardize the 
rest of their education. Pennsylvania's new ``Classroom Plus'' tutoring 
grant program helps third-through sixth-graders--who need it--no matter 
where they go to school. ``Classroom Plus'' offers up to $500 directly 
to parents of children struggling in math and reading, so they can get 
their children extra help to get back on track.
    Pennsylvania's state assessment is the linchpin of our 
accountability system. We welcome the President's emphasis on measuring 
what our children know and can do. That's the best way to find out if 
everything else we do in education is working--and where our children 
may need extra help. Pennsylvania's assessments measure our children's 
knowledge of our rigorous academic standards in reading, math, and 
writing.
    Every child needs and deserves a great teacher. Pennsylvania raised 
the bar of achievement for teachers by requiring higher GPAs, more 
coursework in their subject areas and ongoing professional training. We 
also give our teachers the tools to succeed. Pennsylvania's new 
Professional Development Assistance Program assesses our teachers' 
collective strengths and weaknesses, so school districts can target 
professional development where needs are greatest. We made it easier 
for teachers to access state-offered--courses they're online and free 
of charge.
    President Bush's No Child Left Behind Act promises exciting new 
opportunities to improve public education across America. In 
Pennsylvania, we believe the President's reforms, coupled with our own 
efforts, will ensure a quality education for all our children.

    Senator Specter. Thank you very much, Secretary Zogby. We 
now turn to Ms. Debra Kahn, Secretary of Education for the City 
of Philadelphia, appointed by the mayor in January of 2000, 
right at the start of his term. She received her bachelor's 
degree in Government from Franklin and Marshall, a master's 
degree from Eagleton Institute of Politics at Rutger's 
University. Thank you for joining us, Ms. Kahn, and we look 
forward to your testimony.
    Ms. Kahn. Thank you, Senator. I appreciate the opportunity 
to be here. I do not have prepared remarks. I am just here to 
answer any questions that might come up.
    Senator Specter. Thank you very much, Ms. Kahn.
    This is an historic meeting. I have been in the Senate now 
for almost 22 years, and been in Government going back a bit 
beyond that, but I have never participated in a meeting where 
all three levels of Government interact, as we are here, with 
the mayor, the Governor, and Members of the United States House 
of Representatives and the Senate all participating, and I 
think it is an excellent indication of the kind of cooperation 
that is possible when people seek to get together.
    Of the five of us here, three are from one political party, 
two from the other, and the politics do not make a bit of 
difference as the five of us are really working hard to tackle 
an enormous problem, regarding education. There is no matter of 
greater priority to the country than education, and nowhere is 
it of greater importance than in the big city schools which 
face enormous challenges for reasons that we all know.
    Last year, of the $51 billion appropriated by the Federal 
Government, almost $1.7 billion came to the Commonwealth of 
Pennsylvania, and of that sum, almost $1.4 billion was for 
title I for elementary and secondary schools.
    Governor Schweiker, I turn to you for the first issue, and 
that is, there are 12 schools currently on the empowerment 
list, 11 beside the City of Philadelphia. Now, the empowerment 
list is a euphemism for school districts which the Commonwealth 
has decided need some help. What is your evaluation as to what 
is occurring in the 11 other school districts?
    Governor Schweiker. Well, a quick response to a complex 
question is, plenty has been done, and more will be pursued. 
First, let me also say this, Senator. I am proud of the 
partnership that this gathering exemplifies, too. It ain't been 
easy, as the mayor and I would say, but I know that our hearts 
and minds are of one outlook, that at least in Philadelphia 
215,000 kids are at stake, and across the State.
    A large number of children whose parents want the best for 
them are greatly interested in what we discuss and the things 
to which we will give rise as a result of this exchange today, 
so I am grateful for the opportunity to comment and respond to 
your question.
    The empowerment schools in 12 locales in Pennsylvania mean 
an awful lot, mean different things to different people. As you 
have rightly recognized, they are struggling, and in my 
administration, and certainly my predecessor felt the same way, 
that it was no longer proper just to sit and observe this 
demise or the downturn that State government had to help, and 
with the assistance of those in the State legislature, and 
certainly with those impressive sums that you mentioned a 
moment ago for remedial education and special circumstances, we 
have been about the business of channeling important help for 
the 12 school systems.
    No less than $450,000 has made its way into each of those 
school systems, in effect in a number of school districts much 
more than that, and the idea is to get to those children who 
are struggling their share of the $25 million that we have 
appropriated for empowerment, the empowerment cause, and as I 
mentioned just a short time ago, there is success to likely be 
in the position of coming off of that empowerment list because 
of making progress.
    My observation, my assessment is it is due to any number of 
dynamics. When we discuss education and achievement 
improvements it just does not lend itself to 120-second canned 
answers. It is always much more complex than that, but broadly 
speaking, Senator, I think it is a consequence of people coming 
together and working together whether they are administrators, 
importantly teachers, and parents, and the students, and 
because of the assistance that is being provided and aligning 
the curriculum with instructional efforts, more regular 
testing, that it shows us the way to make more vital and 
encouraging those classrooms, and over time that translates 
into learning, and better achievement rates, and so I think in 
sum it has been successful.
    Is our job completed? No. It is going to take sometime.
    Senator Specter. Governor Schweiker, on the $20 million 
special appropriation that went to the State for these 
empowerment districts, we are going to be, obviously, taking a 
look beyond today's hearing to see where the money has gone and 
how effective it has been, and our staffs will be working 
together because we are now approaching a new appropriation 
cycle, and Senator Santorum joins my interest, as do 
Congressman Fattah and Congressman Brady and the entire 
Pennsylvania delegation in taking a look to see what additional 
help the Federal Government can do for these empowerment 
schools who need extra assistance.
    This process in Philadelphia, I do not want to call it an 
experiment, because it is not. It is something that is very 
carefully thought through, but we are going to be looking at 
what you are doing here, frankly, with a view to helping you 
some more if we can. What you are doing specifically, and what 
is happening with the other 11 empowerment districts, will be 
very important to us in evaluating what further assistance we 
can be.
    Mr. Mayor, let me compliment you on this handsome courtroom 
in your city hall. I have been here on many, many occasions, 
first as an Assistant District Attorney and later District 
Attorney. The DA's office used to be right around the corner at 
666 until somehow that keystone was given up. People in the 
audience do not know that there is a sheriff's cell block which 
is right around the corner going upstairs, where we had ``60 
Minutes'' do the first filming with Mike Wallace in 1968. Their 
first show was done right around the corner, one floor up, and 
this courtroom goes back to about 1875, when this building was 
constructed, but it has a very fresh, ornate, and good look, 
and as mayor we thank you for it.
    Mr. Mayor, there are some 264 schools in the Philadelphia 
district and 42 are involved in the current program, and that 
leaves 222 more schools. Is there any special program which is 
being undertaken to address the issues in those 222 schools?
    Mr. Street. Thank you very much, Senator. I would have a 
brief comment, and then I would like to have Secretary Kahn 
also respond to this question.
    We have spent an appropriate amount of time improving the 
quality of education and changing the dynamics in the public 
school system in this city. Governor Schweiker and I agreed 
early on that, unlike other empowerment districts, we wanted to 
do something more in the City of Philadelphia. We agreed, I 
should say to the dismay of many, that we wanted to privatize 
some of the management of schools in our city, and we also 
agreed that we wanted to establish partnership schools.
    And although an inordinate amount of, I think, attention 
has been spent on those aspects of our reform plan and, as the 
Governor has already indicated, there is some degree of concern 
in this administration that we not go too far too fast, we are 
working together and are committed to doing the very best we 
can to improve the quality of the management and the overall 
supervision of all of the schools that are the lowest-
performing schools, and we agree that over a period of time we 
will work out those details.
    We also are concerned about the education that is being 
delivered in all the other schools, and the commission has been 
working hard to determine the new programs and the kind of 
overall supervision that will be available in those schools, 
and Secretary Kahn will have a comment on that particular part 
of our program.
    Ms. Kahn. Thank you, Senator. I would say there is not one 
absolutely set approach to the other schools, but I think there 
really are common elements that need to be present, and we have 
seen this when we have seen schools make progress. In some of 
those cases it is first of all having adequate support for 
teachers in the classroom, particularly when we have a younger 
teacher work for us. It is very important they continue to have 
updated materials and ongoing support and assistance in their 
classroom to improve their instruction.
    One thing that students need always is extra time and 
attention, and they can get that in a variety of ways. We have 
particularly tried to reduce our class sizes in the youngest 
grades, K through 2 and 3, and that has been shown in the way 
that we have done it to have some real success, extended days, 
after-school tutoring, certain approaches that really help kids 
in some cases make up when they have fallen behind, or keep the 
pace, or get ahead, building partnerships with communities 
outside, taking advantage of really the rich array of resources 
that exist in the city, whether they are cultural institutions, 
business organizations, bringing those resources to bear on the 
schools.
    Senator Specter. Ms. Kahn, are there some changes being 
made in the other 222 schools which are not the subject of this 
program?
    Ms. Kahn. Some of those things like continuing to reduce 
class size, strengthening partnerships. One thing that was just 
featured in the newspaper last week, one of our teachers in one 
of our troubled high schools had written a handbook on how to 
write, for example, which is now being spread across to 20 
other schools. It is making dramatic gains for our students in 
writing on the PSSA.
    The other thing we have had success with is the Johns 
Hopkins model, actually called Talent Development, in both our 
high schools and some of our middle schools, which combines a 
lot of these features and has really been showing real gains in 
our schools.
    Senator Specter. Just one final comment. When we look to 
Federal funding, obviously the Pennsylvania delegation wants to 
do as much as we can for our State, but when we have a national 
model it gives us a critical reason why there ought to be some 
extra attention. Pennsylvania serving as a model for what might 
be done Nation-wide, and the historic program in effect here 
will give us that ammunition for extra funding, provided, of 
course, it is working throughly and working well.
    Governor Schweiker. Senator, if I may interject, it is most 
appropriate when we gather in the City of Philadelphia we talk 
about the Philadelphia endeavors, yet as Secretary Zogby 
briefly described, we have a number of elements already in 
place as far as our reform efforts throughout Pennsylvania that 
I think are very, very much akin conceptually to what the 
President has proffered and what you are exploring today, 
whether it is in the area of accountability and testing, to 
higher standards for teachers during their years of 
matriculation, to the tutoring that was just mentioned by 
Secretary Kahn both in district or in the evening.
    So I think there are others where that affinity can be 
demonstrated, but I hope, as you weigh in and understand what 
the President hopes to enact, that Pennsylvania is a powerful 
example already of what can be achieved when we ally and help 
these things occur.
    Senator Specter. Thank you very much, Governor. I want to 
turn now to Congressman Chaka Fattah, four-term member of the 
House of Representatives, lifelong Philadelphian, attended the 
Community College of Philadelphia, the University of 
Pennsylvania Wharton School, and the University of 
Pennsylvania, where he received a master's degree in public 
administration. I acknowledge Congressman Fattah's leadership 
on his legislative initiative dealing with the issue of 
comparability, and with his quest to improve the availability 
of educational services to all the students on a more equal 
basis.
    Congressman Fattah.
    Mr. Fattah. Thank you, Senator. Let me thank the Senator 
again and mention also one of the programs we have operating in 
a third of our schools in Philadelphia is the Gear-Up program, 
and even though I get all of the credit, it would not have been 
possible without Senator Specter making sure that the dollars 
could be appropriated, and as we conclude this year's work, we 
will have appropriated over $1 million to Gear-Up and a million 
and a half kids Nation-wide, tens of thousands of kids right 
here in Philadelphia and other places in our Commonwealth, so I 
want to thank the Senator.
    I want to get to some of the tougher issues, however, in 
this effort, and I want to start by just trying to understand 
what our goal is. Could someone, the Governor or someone on the 
panel tell us what a successfully reformed school is going to 
look like in Philadelphia when this process is over? What is 
our goal? Is it that 51 percent of the children score at or 
above the State level? Is it two-thirds of the children, 85 
percent of the children, or 100 percent? Where will we know 
whether or not the efforts through private management, 
nonprofit management, or the School Reform Commission zone 
internally driven reforms have been successful?
    Governor Schweiker. Well, Congressman, if I may--and I do 
appreciate the remarkable attention you provide to the 
Philadelphia schools and what we are attempting to install 
here. In fact, for each of you the heavy lifting that you do in 
Washington takes us a long way, and we appreciate it.
    Having said that, as the Governor and someone who has lived 
in this area a long, long time, ideally our aspirations are 
that every child leave with good skills and can hold down a 
decent job out there in Pennsylvania's work places and economy. 
Sadly, and this is perhaps where I would first respond, when 
you look at a first-grade classroom, you have got to remind 
yourself that 50 percent of the kids will not reach their 
senior year in this school system, and so my answer would be 
that all kids reach their senior year and graduate, and that is 
of great concern to me.
    How do we get there, of course, applicationwise and 
approach-wise, it causes some of the disputes that have been 
already indirectly acknowledged here today, but it is to see to 
it that kids learn at impressive rates, and right now, 
depending on the school that you reference, 50 to 75 percent of 
the kids are sadly lacking in reading and math, and they are 
never going to be able to aspire to those jobs, so a much 
higher number of children who can read.
    Just as an aside, something I have never forgotten is, just 
randomly taking library books off a library shelf in a 
Philadelphia school--a number of schools, I might add. I have 
been in many of them. Randomly choose those books, and you look 
at the copyright dates, 1968, 1978, 1988, and 1998, and you and 
I know they do not represent adequate resources, so the point I 
am making is, together we have got to provide the resources, 
much of it financial, to see to it that teachers can do their 
best, and parents feel encouraged about what the classroom can 
afford their child, and ultimately more kids achieving at 
impressive rates.
    Mr. Fattah. Well, my point is that, given the increases in 
Philadelphia schools' performance on the PSSA's over the last 5 
years, in many cases outpacing the State-wide average, so that 
you had low-performing schools, they were improving, you have 
along with the mayor set up this partnership. Is it that that 
level of improvement continue, or is it that it accelerates? I 
am trying to understand where the bar is being set, and maybe 
the Secretary of Education----
    Governor Schweiker. We seek no less than all children being 
able to read and do math and master computers and use them in 
their every-day work, and 100 percent--I mean, the idea of No 
Child Left Behind is that no child should be overlooked, and 
sadly in some cases systematically it is happening here.
    Mr. Fattah. Let me ask you this. You and the Secretary, Mr. 
Zogby, have indicated your support for the Federal legislation 
that I supported, along with Senator Specter, No Child Left 
Behind. It has certain requirements for what the Federal 
Government has identified as somewhere between 5,000 and 7,000 
failing schools across the country, which means a great many of 
them are outside of the City of Philadelphia. They are all over 
the place.
    One of those requirements is that, as the President 
indicated in his State of the Union, is that every child have a 
fully qualified teacher in their classroom. In the State's 501 
school districts, it is unfortunate to note that the State has 
allowed in one of those districts 50 percent of what the State 
says is not fully qualified, not certified teachers to teach. 
That is in Philadelphia.
    Will you give a commitment, can you give a commitment that 
the State will not seek any wavers to this Federal requirement, 
that you will insist that in classrooms in Philadelphia that 
students have access to a qualified math teacher and a 
qualified instructor in those four subjects as the law lays 
out, or will you be one of the States that would seek waivers 
to this Federal mandate?
    Governor Schweiker. Well, ideally they would have all of 
the qualifications that are necessary to do the job. I can 
assure you we will have the most dedicated teachers. I do not 
think we can answer that at this point.
    Mr. Fattah. Let me ask you about my most favorite subject, 
Edison, and maybe Secretary Zogby can take a crack at this. 
What due diligence did the State do in determining that 50,000 
children in Philadelphia and their future life chances would be 
turned over to Edison Schools, Incorporated?
    Mr. Zogby. Well, Congressman, I guess I am not quite sure 
how to answer that, in the sense that we did a fair amount of 
due diligence when we engaged Edison to work with the State in 
developing an analysis of the Philadelphia School District. We 
had worked with Edison prior to its work in Philadelphia, knew 
of Edison through its work around the country, and I think felt 
fairly comfortable about not only the quality and the caliber 
of people that the company was able to bring to the work.
    Mr. Fattah. Did the Commonwealth do a review of each of the 
schools that Edison manages, either in the Commonwealth or 
Nation-wide, and discern from that information that they could 
raise student achievement?
    Mr. Zogby. I had been to several schools Edison runs across 
the country, including----
    Mr. Fattah. Let me rephrase the question so I can get to 
it. Did you review the actual academic performance in any of 
the schools Edison runs, either in the Commonwealth or Nation-
wide?
    Mr. Zogby. Yes, we did look at individual school 
performance. I cannot sit here and tell you we looked at every 
school that Edison runs. I think if you look, for instance, at 
some of the reports on Edison a number of their schools do 
quite well and out-perform your traditional public school. If 
you look at the fact that Edison and a number of other for-
profit companies that are in this business often work in some 
of the most troubled school districts in the Nation, and then 
in addition to that, take on some of the most difficult and 
academically troubled schools, and compare that with the 
performance that they achieve against averages in districts 
where they perform three to five times better than the 
traditional public school, I think based on that due diligence 
we felt comfortable with what the company had to offer.
    Mr. Fattah. So the Commonwealth found that to be true, that 
they improved three to five times?
    Mr. Zogby. We found Edison schools did have significant 
success in a number of schools. They are not perfect.
    Mr. Fattah. I am not talking about Edison's propaganda. I 
am saying, did the State do a review?
    Mr. Zogby. I am not talking about Edison's propaganda, 
either, Congressman. What I am talking about, how the schools 
were able to achieve in a number of the schools the 
Commonwealth did look at.
    Mr. Fattah. Let me ask you one other question. The large 
urban districts, as Senator Specter indicated, are at the heart 
of some of our difficulties in public education. Could you 
indicate whether or not Philadelphia as a large urban district, 
compared to New York, Chicago, Atlanta, any of the big school 
districts, the top 10, 20, where Philadelphia would rank in 
comparison to these districts in terms of the issues the 
Governor has raised?
    Mr. Zogby. I cannot give you a ranking against other large 
urban school districts. What is clear is that in Pennsylvania, 
in our State's largest school district, it is a school district 
facing both significant academic and financial challenges that 
really cannot be compared to any other school district in our 
country.
    Mr. Fattah. So if I said to you, among the large urban 
districts Philadelphia by far has demonstrated the most 
progress in the last 5 years in our country, what would your 
response to that be, Mr. Secretary?
    Mr. Zogby. I would find that difficult to believe.
    Mr. Fattah. Have you done a review of the situation in New 
York City and Chicago and Atlanta, any of these other large 
districts? Has there been any comparison between the reforms 
that had been in place, that had been improved by the 
Commonwealth as part of the empowerment act on January 2001 
that have been raising improvement scores in our city?
    That plan has now been pushed aside for a new plan, which 
is this partnership which I support, but I am trying to 
understand the context under which we are proceeding, so what I 
found absent in the Edison review was any comparison of 
Philadelphia to any other large districts. Are you aware of 
information that would be contrary to what I have suggested, 
that this city and its school district was out-performing other 
large city urban districts in the country at the time of the 
partnership being set in place?
    Mr. Zogby. In the report conducted for the Commonwealth by 
Edison schools, the suggestion in the report is actually that 
Philadelphia School District is one of the poorer performers, 
as large urban school districts go.
    Mr. Fattah. Did the report compare it to any other large 
urban school districts?
    Mr. Zogby. It did, but I cannot recall those districts off-
hand.
    Mr. Fattah. It compared it specifically only to three, 
which are Broward County, Las Vegas, and one other that I 
cannot recall at the moment.
    None of them, all of them collectively, okay, do not raise 
to the size of Philadelphia, nor collectively their total 
impoverished student population. That is, those at the free 
reduced lunch level collectively were around 30 percent, so 
this is a district in which 80 percent of our children are at 
the free reduced lunch level, and it never compared 
Philadelphia to any of its, actually, peers in the country.
    When you reviewed the report, did your staff raise any of 
these concerns?
    Mr. Zogby. We looked at the report very extensively, and I 
suppose, Congressman, as opposed to what is happening in other 
school districts around the country I think what the Governor 
and the mayor have set out here in Philadelphia is a new 
approach to delivering public education with some very bold and 
innovative reforms, understanding there is also going to be a 
new era of accountability here in Philadelphia, which all 
schools will be held accountable for delivering better results 
for children.
    Mr. Fattah. Are you preparing at this point to seek waivers 
to the Federal requirements under the No Child Left Behind?
    Mr. Zogby. Not at this point, Congressman, no.
    Mr. Fattah. I know we have to move on, and I will be glad 
to yield in 1 second.
    Governor Schweiker. Congressman, can I add something? As we 
discussed the Philadelphia relative to other school systems, I 
would sit here and say that there are impressive pockets of 
achievement and excellence throughout the city, putting aside 
for a moment the empirical data that I think drives your 
questions and remarks, and that is a good thing, and we want to 
give rise to that across the city. That is why we are here, and 
I would just back this up a little bit to help us understand 
why this endeavor is underway, really two drivers, two 
dynamics. One was financial, and one was academic.
    Keep in mind, last summer, when the district's budget was 
put in place, talking about expending $2 billion and only 
having about $1.8 they were going to collect, I mean, that is 
the definition of insolvency, and because of that I think the 
mayor drove West to Harrisburg and realized that dire financial 
times were around the corner. That is what precipitated the 
review, not only the academic dimensions, which rightfully 
should dominate our discussion here today, but I just thought 
it important to mention that.
    Mr. Fattah. I am going to yield the time, and hopefully I 
will get another opportunity, because I would like to explore 
the financial dynamics, given that the chairman of the SRC has 
indicated that 50 percent of the deficit in Philadelphia was 
driven by the charter schools, which we all support charter 
schools, but the way that the State funds them, and we now know 
that Representative Parsell has introduced legislation to 
change the way charters are funded, but at least 50 percent of 
the multimillion deficit in our city was driven by that 
reality, but I yield at this time and I thank the Senator.
    Senator Specter. Thank you very much, Congressman Fattah.
    Secretary Zogby, I think the questions which Congressman 
Fattah has raised would be very useful to have research done 
and the specific answers. It has been a lively exchange and I 
think a useful exchange, and nobody expects you to have the 
comparisons of all the cities at your fingertips, and we 
respect what you have done, but as we move ahead between now 
and the time of the next Federal appropriations process I think 
it would be useful if we had that information.

                           prepared statement

    I want to thank Councilwoman Donna Reed Miller for 
submitting testimony, and I want to acknowledge her presence in 
the audience today along with Councilwoman Janey Blackwell, 
Councilman Frank Rizzo, and also Judge Jane Fitzgerald.
    [The statement follows:]
     Prepared Statement of Councilwoman Donna Reed Miller, City of 
                            Philadelphia, PA
    I want to thank the Appropriations Subcommittee on Labor, Health 
and Human Services and Education for this opportunity to submit 
testimony on Pennsylvania's Education Empowerment Act, legislation that 
seeks to improve those schools where students have not achieved 
proficiency in basic skills.
    It cannot be argued that we, in Philadelphia, are now faced with a 
critical challenge to reform our school system under new, innovative 
and, quite frankly, untried circumstances. We all recognize the 
components of a good school system: adequate funding, small classes, 
qualified and certified teachers, professional development, standards, 
assessments, accountability, and community partnerships and family 
involvement.
    The enactment of the Education Empowerment Act begins the process 
of making these components a reality. However, we must not lose sight 
of the process. We in Philadelphia, under the mandate of the 
Empowerment Act, created a School District Improvement Plan that placed 
great emphasis on the alignment of city standards with those of the 
state, on the assessment of these standards, and on the need for a 
city-wide curriculum that reflected the benchmarks of the standards. We 
listened at City Council Budget Hearings to testimony that identified 
curriculum issues with great clarity.
    However, we now find ourselves in Philadelphia with an uncertain 
number of EMOs, who will each choose one of five management models, not 
yet matched to specific schools. Each of these independent providers 
will, in most cases, arrive with their own curriculum, and, at times, 
their own teachers, and will implement their own vision of reform.
    The enactment of the Education Empowerment Act was only the 
beginning of our arduous journey to guarantee a quality public 
education for every child in Philadelphia. Before we speak in terms of 
Pennsylvania as a prototype to accomplish the goals of the recently 
passed Elementary and Secondary Education Act, we must be vigilant in 
our implementation of the Act.
    The expression of legislative ideals and intent is only the 
beginning of implementing and living the reality of true school reform. 
We are embarking on a process.
    The truth of our success will be the day to day experience of the 
children of Philadelphia who live on the front lines, every day, in 
every public school classroom across our city.

                     STATEMENT OF HON. ROBERT BRADY

    Senator Specter. Now I want to turn to Congressman Robert 
Brady, who has represented Pennsylvania's First Congressional 
District since 1998 and served as Deputy Mayor for Philadelphia 
Mayor Wilson Goode. He came into politics in 1967, when he was 
a member of the 34th Ward Democrat Executive Committee, and I 
am sure at that time was a decisive factor in the 1967 mayoral 
election. I forget who the candidates were.
    Congressman Brady is chairman of the Philadelphia 
Democratic Party, a position he has held for 16 years. 
Congressman Brady.
    Mr. Brady. Thank you, Senator. I am sure you will continue 
thanking me for the job I did for you in 1967, lest you would 
not be here, but I just appreciate again being here at these 
hearings, and I want to take the political side of this, 
because that is probably what I do best, is that I have never 
been more impressed with the hearing that we have.
    You have mentioned people in the audience that are 
Democrats and Republicans. You are flanked, sir, by two members 
of the opposite party. We have you dead in the middle, in our 
sights here, and I just appreciate what you do and what you are 
going to do, and again I cannot think my Governor and my mayor 
enough for keep talking. We need to keep talking.
    I met with Mr. Nevels. I know he has 215,000 children's 
stakes at heart, their well-being at heart. I know Sandra 
McCarthur Glenn is there, and I know that she has these 215,000 
children's stake at heart, along with our mayor and Governor 
and you and me, and without question my colleague, Chaka 
Fattah, and if we can just keep this rolling, as you said, we 
have our legislative body and we have our city here and we have 
our Federal Government here, and now with our judiciary here, 
we need to be on the same page, and just have to keep right in 
our sights the well-being of our children in the City of 
Philadelphia.
    We mentioned about our Pennsylvania delegation, but I am a 
partisan fellow, and along with the three Members up here, we 
are both from the City of Philadelphia, and we appreciate your 
efforts in securing money, and are looking forward to helping 
you secure more money for our school districts, providing it is 
done properly and spent properly, and I do appreciate it.
    Senator Specter. Thank you very much, Congressman Brady. We 
do have two more panels and many, many more witnesses. We have 
extended this panel for obvious reasons. When you bring in the 
Governor and you bring in the mayor we do not pay close 
attention to the red lights, and I turned off the lights at one 
point because Congressman Fattah was on some very, very 
important questions. We will supplement the information in a 
factual matter, and I believe other witnesses on the next two 
panels will be able to contribute as well.
    This subcommittee is deeply grateful to you, Governor 
Schweiker, and to you, Mayor Street, for appearing here today 
and being willing to advance testimony and respond to 
questions. This hearing is a testimonial to the importance of 
the subject and to the determination of the State and the city 
and the Federal Government to find better answers, so thank you 
all very much.
    We would now turn to panel two. If the witnesses would come 
forward. We have Dr. James Nevels, Ms. Vicki Phillips, Dr. 
Kenneth Kitch, Mr. Benno Schmidt, Dr. Abdur-Rahim Islam, and 
Ms. Rosalind Jones-Johnson. Our first witness today in the 
second panel will be Dr. James E. Nevels, chairman of the 
Philadelphia School Reform Commission, and chairman and CEO of 
the Swarthmore Group. Mr. Nevels also served as a member of the 
Control Board of the Chester-Upland School District in Delaware 
County, received his bachelor's degree from Bucknell University 
and both his law and master's degree from the University of 
Pennsylvania.
    We have six witnesses on panel two, and four witnesses on 
panel three, so you will excuse us if we ask you to observe the 
lights, although we did not insist on that for the Governor and 
the mayor, I know you will understand.
    Mr. Nevels, thank you for your visit to me in Washington 
recently, and thank you for your public-spirited work, and we 
look forward to your testimony.
STATEMENT OF JAMES E. NEVELS, CHAIR, SCHOOL REFORM 
            COMMISSION, PHILADELPHIA CITY SCHOOL 
            DISTRICT
    Mr. Nevels. Thank you very much, Senator, and I thank 
Congressman Brady and Congressman Fattah for their 
accessibility during a recent visit to Washington, and I thank 
the three of you, along with the entire delegation, in terms of 
your support of the 214,000 children in the City of 
Philadelphia.
    My name is James Nevels, and I am the chairman of the five-
member School Reform Commission of the School District of 
Philadelphia. Thank you for the opportunity to testify here 
today.
    The School Reform Commission was authorized by Act 46, 
which the State legislature enacted last year. Act 46 has 
become in effect an Education Empowerment Act tailored 
specifically to Philadelphia. While the year 2000 Education 
Empowerment Act is important legislation, I would like, with 
your leave, to focus my testimony on what we are doing in 
Philadelphia pursuant to that legislation.
    When Governor Mark Schweiker and Mayor John Street of 
Philadelphia reached an agreement last year, an historic 
agreement to establish the School Reform Commission which Act 
46 authorized, they initiated an educational reform process 
that we hope will serve as a model for academically and 
financially distressed school districts across our country. My 
goal today is to provide an overview of the Philadelphia reform 
process with the hope that you, your colleagues, and your staff 
can find ways in which the ESEA can benefit our efforts.
    To say that the public school system in Philadelphia is 
distressed is an understatement. It would be more accurate, if 
not an overstatement, to say that the system is a State in 
cardiac arrest. As you know all too well, most students in this 
school district are not reading at grade level. More than half 
our youngsters scored in the bottom quartile in math and 
reading on the Pennsylvania system of schools assessment test. 
Forty percent of our students are dropping out before 
graduation.
    As you know, the academic troubles are matched by the 
financial troubles. The district's annual budget is $1.7 
billion, but it is carrying an additional $1 billion in debt. 
We are dealing with poor financial and operational controls, 
and little comparison of actual to budgeted expenditures. These 
are, of course, only some of the many problems the School 
Reform Commission must address.
    Since the commission was formed in January of this year we 
undertook certain fiscal measures to provide immediate relief 
to the financial situation. The commission has ordered a $300 
million bond issue to deal with the current year's operating 
deficit. Additionally, we have committed to achieving $25 
million in near-term savings by eliminating redundancies and 
operational inefficiencies at the district's headquarters.

                           PREPARED STATEMENT

    As for the longer term, our efforts are guided by four 
principles that I devised based on my experience with school 
reform in Chester-Upland District. Those principles are, 
educate children first, treat teachers as educators, engage 
families--that is, aunts, uncles, grandparents--as parents, and 
great education emerges from sound financial practices.
    I see that the light is on, and I will abbreviate my 
comments in an effort to keep us on time, but I welcome the 
opportunity to address questions later on.
    Senator Specter. Thank you very much, Mr. Nevels.
    [The statement follows:]
                 Prepared Statement of James E. Nevels
    Good Morning, Senator Specter, I would like to join Principal 
Michael Rosenberg in welcoming you to Grover Washington Middle School.
    My name is James E. Nevels and I am the Chairman of the five member 
School Reform Commission of the School District of Philadelphia.
    Thank you for the opportunity to testify here today.
    The School Reform Commission was authorized by Act 46, which the 
state legislature enacted late last year. Act 46 has become--in 
effect--an Education Empowerment Act tailored specifically to 
Philadelphia. While the year 2000 Education Empowerment Act is 
important legislation, I would like--with your leave--to focus my 
testimony on what we are doing in Philadelphia pursuant to Act 46.
    When Governor Mark Schweiker and Mayor John Street of Philadelphia 
reached an agreement last year to establish the School Reform 
Commission, which Act 46 authorized, they initiated an educational 
reform process that we hope will serve as a model for distressed school 
systems across our country.
    My goal today is to provide an overview of the Philadelphia reform 
process, with the hope that you, your colleagues, and staff can find 
ways in which the ESEA can benefit our efforts.
    To say that the public school system in Philadelphia is 
``distressed'' is an understatement. It would be more accurate--and not 
hyperbolic--to say that the system is in a state of ``cardiac arrest.''
    As you know all too well, most students in this district are not 
reading at grade level.
    More than half of our youngsters scored in the bottom quartile in 
math and reading on the Pennsylvania System of Schools Assessment Test.
    Forty percent of our students are dropping out before graduation.
    As you know, the academic troubles are matched by the financial 
troubles.
    The district's annual budget is $1.7 billion but it is carrying an 
additional billion dollars in debt.
    We are dealing with poor financial and operational controls and 
little comparison of actual to budgeted expenditures.
    These are--of course--only some of the many problems the School 
Reform Commission must address.
    Since the Commission was formed in January of this year, we 
undertook certain fiscal measures to provide immediate relief to the 
financial situation.
    The Commission had ordered a $300 million bond issue to deal with 
the current year's operating deficit.
    Additionally, we have committed to achieving $25 million in near-
term savings by eliminating redundancies and operational inefficiencies 
at the district's headquarters.
    As for the longer term, our efforts our guided by four principles 
that I devised based on my experience with school reform in the Chester 
Upland School District. These principals are:
  --Educate Children First,
  --Treat Teachers as Educators,
  --Engage Families (i.e., aunts, uncles, grandparents) as Parents, and
  --Great Education Emerges From Sound Financial Practices.
    These principles manifest in the various measures and initiatives 
the Commission has undertaken since January. There are four general 
categories in this broad overview of these measures and initiatives:
    First, we have established task forces that are chaired by 
Commission members; the task forces are focusing on:
  --Teacher certification and class size,
  --Cleaning up and fixing up our schools,
  --School violence and disruption, and
  --School-business partnerships.
    Second, we have retained the advice of consultants in making 
necessary reforms. We have selected Edison Schools to be the lead 
District Advisor. In this capacity, Edison will identify big-issue 
reform measures ranging from best management practices to new teacher 
training and retention.
    Other consultants we have retained have been assigned the critical 
areas of staff development, curriculum review, high school renewal, 
school safety, procurement, and food services.
    Third, we are transforming seventy low performing schools using 
five educational models:
  --Reconstitution (restructuring school staff),
  --Charter schools (independently run publicly funded schools),
  --Privatization (outside management and staffing of schools),
  --Provider-management (retaining staff but with outside management), 
        and
  --Independent schools (freeing schools from the district's 
        centralized controls).
    Fourth and finally, our reform initiative is not a top-down decree-
driven process. In order to maximize the involvement of parents, 
students, and local community leaders in the reform process, we have 
created Local Area Educational Reform Councils as well as a district-
wide Advisory Council.
    These councils--composed of representatives of the community, 
various stakeholders, and the student body--will advise and counsel the 
SRC and the school district staff at every level of its operation.
    In my time allotted here today, I have given you an overview of the 
direction of the Commission's school reform efforts.
    As a supporter of education, you are know doubt quite familiar with 
those aspects of the ESEA that fit squarely within the goals we are 
seeking to achieve.
    Some--though certainly not all--areas of the ESEA that are directly 
pertinent to the Commissions efforts include:
  --Professional Development
  --Class Size Reduction
  --Safe and Drug Free Schools, and
  --Charter Schools
    It would be the Commission's sincere pleasure and desire to work 
with you and your staff in further exploring the links between the ESEA 
and our efforts in Philadelphia.
    Thank you for your time.
STATEMENT OF VICKI PHILLIPS, SUPERINTENDENT, LANCASTER 
            SCHOOL DISTRICT
    Senator Specter. We now turn to Ms. Vicki Phillips, 
Superintendent of the Lancaster School District, who serves on 
the Advisory Panel for Harvard University's Urban 
Superintendents program, she received both her bachelor's and 
master's degree from Western Kentucky University.
    Ms. Phillips, the floor is yours.
    Ms. Phillips. Good morning. The School District of 
Lancaster is one of the districts on the empowerment list, but 
since the summer of June 1999, prior to the empowerment, we 
have been pursuing an aggressive reform agenda, and I am not 
going to stick to my prepared remarks, although I would like 
you to have it in front of you because I want to refer to a 
couple of pieces of data, and I want to go strictly to 
Congressman Fattah's question about results.
    When I came to the district we had literally 2 out of every 
10 students at the exit of elementary, middle, and high school 
performing to high academic standards. We laid out an 
aggressive reform agenda, and a goal of having 9 out of every 
10 students pursuing and meeting higher academic standards by 
the year 2004. We have pursued that agenda aggressively, not 
with experiments or boutique projects but with strategies that 
we know absolutely work and have proven to work in other places 
with the student population that we have.
    We are at about 65 percent poverty. Our students range from 
40 percent, our schools from 40 percent poverty to 90-some. We 
have a very multicultural population--43 percent of our student 
body is Latino, 23 percent that is African American, 3 to 4 
percent Asian--so we have all of the urban challenges.
    We have been going about that aggressive reform agenda by 
investing in and well-executing, as I said, things that we know 
work. Early childhood education, giving our students an early 
and successful start, and making sure that our 5-year-olds come 
out of kindergarten reading and writing and doing mathematics 
to a higher standard.
    We have been pursuing strong curriculum strategies and 
materials, giving our teachers extraordinary amounts of 
professional development and training, extending the learning 
time for our students and, most importantly, we have been 
holding ourselves accountable by setting year-to-year 
performance targets, having our schools publicly present their 
school improvement plans, reporting to our community year on 
year, and setting up pay for performance times and models for 
our school leaders.
    I would like you to turn, actually, in the pages of my 
testimony to page 7, and take a look at some of the data and 
the changes that occurred in the school district in the last 3 
years. On page 7, what you see is an example of an elementary 
school that serves six homeless shelters, has 89 percent of 
their students in poverty, and has incredible levels of 
mobility.
    What you will see is that school having gone from 54 
percent of their students in the bottom-performing category on 
the State assessment in 1998 to 29 percent, and having gone 
from 2 percent in the very top advanced category to 18 percent. 
If you look at their scores in mathematics you will see that 
same score having gone from 79 percent to 25 percent in the 
bottom over the last few years, and having gone from 1.4 
percent of their students advance to 20.8.
    On the pages following that you will see other elementary 
schools with equally high levels of poverty having made the 
same kind of extraordinary gain, and you will see on page 10 a 
school that by all accounts was a high-end school doing fairly 
well when I came to the district, but typically following the 
traditional Bell curve that actually has less than 6 percent of 
their students in the bottom now.
    You will also find us to a district, because of our 
investment in early childhood education, that has gone from 
literally 2 out of every 10 students entering our kindergarten 
unprepared to learn, to 8 and 9 out of every 10 students 
meeting higher academic standards in kindergarten, first and 
second grade. We now produce more than 60 percent of our fifth 
graders going forward meeting standards, meaning proficient and 
advanced, not below basic or basic.
    Our middle schools have started to move large numbers of 
students out of the bottom, and our high school is well-
positioned in the next few years to make the same sorts of 
gain. We believe we are a public education system that can work 
K to 12, and we are not afraid of competition, choice, or 
accountability. What we want is to produce and to be sure that 
public education stays strong in this Commonwealth and across 
this country by both continuing to raise the demand and making 
sure that the investment to secure the success are there.
    Senator Specter. Thank you very much, Ms. Phillips, for 
that very succinct statement. It looks very impressive.
STATEMENT OF DR. KENNETH R. KITCH, SUPERINTENDENT, 
            STEELTON-HIGHSPIRE SCHOOL DISTRICT
    Senator Specter. We now turn to Dr. Kenneth Kitch, 
Superintendent of the Steelton-Highspire School District for 
the past 8 years, Ph.D. from Penn State University. Welcome, 
Dr. Kitch, and we look forward to your testimony.
    Dr. Kitch. Thank you, Senator Specter, Congressman Fattah.
    The Steelton-Highspire School District is located directly 
south of our capital of Pennsylvania. We are a small district 
in an economically challenged area, with a total population of 
1,378 students in grades K-5 through 12. A total of 41 percent 
of our students qualified for either free or reduced federally 
subsidized meals program in the 2001-2002 school year, where we 
have a morning breakfast program as well as a lunch program, 
which means their families are below the poverty level. The 
average family income for our entire district is $28,100.
    Our student population is fairly diverse in ethnicity and 
culture. There are federally subsidized housing projects and 
low income areas that tend to be transient in our district. 
Many of our residents are retired and no longer make a 
significant contribution to the financial structure of the 
district.
    Historically, the bulk of our tax base has been the single 
industrial company, Bethlehem Steel. Unfortunately, reality is 
what it is in this day and age, and the steel industry and the 
decline across the Nation is very true in our district as well. 
Bethlehem Steel has filed for Chapter 11 bankruptcy protection 
and extensive property reassessment, which directly affects our 
resources for income for our district.
    Another evidence of our economic constraints is the age of 
our two buildings. On our elementary school urban campus the 
kindergarten through second grade are located in a three-story 
building erected in 1882, almost like this building, as you 
noted, was 1875. The newer addition to the building dates back 
to 1899 for students in grades 3 through 6. Our secondary 
building, which houses students in grades 3 through 12, was 
completed in 1957.
    Our Governor Schweiker, legislatures, and Secretary of 
Education Zogby have been very generous and provided over $1 
million in much-needed funds to implement our empowerment plan 
to upgrade our people, technology, and purchase new textbooks. 
The good news is that our students over the past 2 years have 
raised their PSSA test scores in grades 5, 8, and 11 to a point 
that we shall be eligible to come off the list at the end of 
this school year, June 30, 2002, and we were eligible to come 
off last year, but because of the additional $550,000 it was a 
no-brainer, we asked to stay on.
    Of course, we still need to achieve the following in our 
empowerment team plan, which includes improvement of student 
academic performance to meet or exceed student State standards, 
increase opportunity for parental and community involvement, 
and enhance training for teachers, administrators, faculty and 
staff.

                           prepared statement

    In conclusion, due to the financially challenged situation 
of the Steelton-Highspire School District, we would humbly ask 
to remain on the empowerment list for an additional academic 
school year, and any additional funds from the Federal or State 
governments would be greatly appreciated for long-ranging and 
systematic impact on positive student achievement in the 
Steelton-Highspire School District for the years to come.
    Thank you very much, Senator, and Congressman Fattah for 
your time.
    Senator Specter. Thank you, Dr. Kitch.
    [The statement follows:]
                  Prepared Statement of Kenneth Kitch
    Good morning Senator Specter, Congressman Brady, and Congressman 
Fattah. My name is Dr. Kenneth Kitch. It has been my pleasure to serve 
as the Superintendent of the Steelton-Highspire School District for 
over the past eight years.
    The Steelton-Highspire School District is located directly south of 
the capital city of Pennsylvania. We are a small school district in an 
economically challenged area with a total student population of 1,378 
in grades K-5 through 12.
    A total of 41 percent of our students qualified for either free or 
reduced federally subsidized meal programs in the 2001-2002 school 
year, which means their families are below the poverty level. The 
average family income for the entire district is $28,100. Our student 
population is fairly diverse in ethnicity and culture, There are 
federally subsidized housing projects and low income areas that tend to 
be transient, Many of our residents are retired and no longer make a 
significant contribution to the financial structure of the district.
    Historically, the bulk of our tax base has been the single 
industrial, Bethlehem Steel. The unfortunate reality is that the steel 
industry's decline across this nation is very true here as well and the 
Bethlehem Steel plant has filed for Chapter 11 bankruptcy protection 
and extensive property reassessment.
    Another evidence of our economic constraints is the age of the two 
buildings on our elementary school urban campus. The kindergarten 
through second grades are located in a three story building erected in 
1882. The newer addition to the building with student classrooms 
located for grades three through six, dates back to A.D. 1899. Our 
secondary building which houses grades seven through twelve was 
completed in 1957.
    Our Governor Schweiker, legislators, and Secretary of Education 
Zogby. have been very generous and provided over a million dollars of 
much needed funds to implement our Empowerment Plan to upgrade our 
pupils technology and purchase new textbooks. The good news is that our 
students over the past two years have raised their PSSA test scores in 
grades five, eight, and eleven to the point that we shall be eligible 
for coming off of the Empowerment List by June 30, 2002. Of course, we 
still need to achieve the following in our Empowerment Team Plan which 
includes the improvement of student academic performance to meet or 
exceed state standards, increase opportunities for parental and 
community involvement. and enhance training for teachers, 
administrators, faculty, and staff.
    In conclusion, due to the financially challenged situation of the 
Steelton-Highspire School District, we would humbly ask to remain on 
the Empowerment List for an additional academic school year. Any 
additional funds forthcoming from the federal or state governments 
would be greatly appreciated for long-ranging and systematic impact on 
positive student achievement in the Steelton-Highspire School District 
for years to come.
STATEMENT OF ROSALIND JONES-JOHNSON, DIRECTOR OF 
            EDUCATION ISSUES, PHILADELPHIA FEDERATION 
            OF TEACHERS HEALTH AND WELFARE FUND
    Senator Specter. Our next witness is Dr. Rosalind Jones-
Johnson, director of educational issues for the Philadelphia 
Federation of Teachers Health and Welfare Fund. Today she is 
also representing the Pennsylvania Federation of Teachers. She 
is the elected teacher's representative to Philadelphia's 
Empowerment Team, received both her bachelor's and master's 
from Cheney, and is pursuing a Ph.D. at Temple University. We 
welcome you here, and look forward to your testimony, Ms. 
Jones-Johnson.
    Ms. Jones-Johnson. Good morning, Senator, and thank you for 
affording teachers the opportunity to provide testimony. Good 
morning, Congressman Chaka Fattah.
    When there is an attempt to measure the accomplishment of 
certain standards determined appropriate by the State, those 
standards must be clear, and clearly communicated to teachers, 
parents, and students. The School District of Philadelphia 
became an empowerment district before Pennsylvania assumed the 
responsibility for publishing State standards for the school 
district of Philadelphia. State standards were not distributed 
to each school until September 2001, more than 1 year after the 
effective date of the empowerment act of July 2000.
    Who should be held accountable? The School District of 
Philadelphia had a plethora of standards and curricula during 
the 1998-1999 school year. The State we feel had a 
responsibility to see to it that the School District of 
Philadelphia provided grade-by-grade curriculum aligned with 
the State standards.
    The State never distributed or enforced distribution of 
State standards. The State accepted the local administrator's 
claim that there was required city-wide curriculum. This 
falsehood has led to blaming teachers and children. There is a 
need to recognize the State and central administration's 
responsibility for developing a city-wide curriculum linked to 
State standards.
    The School District of Philadelphia was also mandated to 
develop local standards by Judge Doris Smith, so during the 
time that we were identified as not improving student 
achievement, we were trying to work using local standards and 
State standards. In addition, the Superintendent asked each 
school to adopt a comprehensive school reform model.
    At the empowerment meeting, a State representative said she 
reviewed the curriculum, and it was aligned to State standards. 
There was no curriculum. Each small learning community in 
Philadelphia had its responsibility for developing its own 
curriculum, and there were more than 900 small learning 
communities. The State's accountability movement is wrong-
headed at best, and real reform for schools must include a 
revolution in the way we measure children, and in the very 
meaning of what schooling must be.
    There are numerous problems and concerns with the 
empowerment act. First, scores to identify the district should 
be based on test scores after an active adoption, not before. 
The State went back more than 2 years before the act was 
developed to identify failing schools. Identification should 
not be based on past data.
    There was and is no Spanish version of the PSSA available 
for Spanish-speaking children, or children who speak other 
languages. Sometimes a language problem is being identified as 
a math or a reading problem. There is a question as to why non-
English-speaking children cannot be tested in their language. 
There is a constant flow of newly arrived immigrants to various 
parts of the State, especially Philadelphia.
    I have provided further testimony on the empowerment act, 
and will be ready to provide answers to your questions. Thank 
you.
    Senator Specter. Thank you very much, Ms. Jones-Johnson.
    [The statement follows:]
              Prepared Statement of Rosalind Jones-Johnson
    The fact that the Philadelphia School District has been placed, 
first under the Pennsylvania's Education Empowerment Act, and second, 
under the takeover legislation, puts us in a unique position to speak 
to these Acts.
    When there is an attempt to measure the accomplishments of certain 
standards determined appropriate by the state, those standards must be 
clear, and clearly communicated to the teachers, parents and students. 
The School District of Philadelphia became an Empowerment District 
before Pennsylvania assumed responsibility for publishing state 
standards for the School District of Philadelphia. State standards were 
not distributed to each school until September 2002, more than two 
years after the effective date of the Empowerment Act, July 2000.
    Who should be held accountable? The School District of Philadelphia 
had a plethora of standards and curricula during the 1998-99 school 
year. The state, we feel, had a responsibility to see to it that the 
School District of Philadelphia provided grade by grade curriculum 
aligned with the state standards. There was no distribution of state 
standards. The state never distributed or enforced distribution of 
state standards. The state accepted the local administration's claim 
that there was a required citywide curriculum. This falsehood has led 
to blaming teachers and children. There is a need to recognize the 
state and central administration's responsibility for developing a 
citywide curriculum--linked to state standards. The empowerment scores 
were based on student test scores during a period when the district was 
just beginning the process of developing curricula linked to state and 
local standards.
    The School District of Philadelphia was mandated to develop local 
standards by Judge Doris Smith. The School District of Philadelphia 
developed, adopted, and distributed local standards before state 
standards were developed. In addition, each school in the district was 
mandated by the district to adopt a Comprehensive School Reform Model. 
Comprehensive reform models were recommended by the federal government. 
Schools were encouraged to experiment with ``New American School.'' 
Neither the Comprehensive School Reform models nor the local standards 
were aligned to state standards. Since many schools were adopting 
school reform models, there was no citywide curriculum aligned to state 
or local standards. Curriculum Frameworks were later developed. They 
were recommended not mandatory.
    At the Empowerment meetings a state representative said she 
reviewed the curriculum and it was aligned to state standards. There 
was no curriculum. Each Small Learning Community had the responsibility 
to develop its own curriculum linked to city standards.
    The state's accountability movement is wrongheaded at best, and 
real reform for schools must include a revolution in the way we measure 
children and in the very meaning of what schooling should be.
    There are numerous problems and concerns with the Empowerment Act. 
First, scores to identify districts should be based on test scores 
after an Act is adopted. The state went back two years after the Act 
was adopted to identify failing schools. Identification should not be 
based on past data.
    There was and is no Spanish version of the PSSA available for 
Spanish speaking children or children who speak other languages. 
Sometimes a language problem is being identified as a math or reading 
problem. There is a question as to why non-English speaking children 
cannot be tested in their language. There is constant flow of newly 
arrived immigrants to various parts of the state (especially 
Philadelphia). A value added assessment system of children may yield 
different results.
    The chief administrative officer who was responsible for the 
fragmented and disjointed system had been replaced and the district was 
in the process of developing grade by grade curriculum in 2000 when the 
district was identified as an Empowerment district. When the state 
takeover occurred, the district was in the process of developing 
curricular aligned with state standards. The district was training a 
team of Reading teachers who specialized in raising reading achievement 
in our most ``at risk'' students. The School District of Philadelphia's 
Empowerment Team had identified target reductions for each school when 
the state takeover occurred. The School Reform Commission never 
considered the hard work that was already in place as a result of the 
Empowerment Plan.
    Test scores are highly correlated with socioeconomic class. Why is 
one's father's occupation a better predictor of SAT scores than 
virtually any other factor? Test scores correlate exceedingly well with 
the income and education of one's parents. Pennsylvania needs to 
explore a value added assessment system. Test data would yield 
different results.
    The state selection of schools, non-selection, confounded teachers, 
parents and the public. Interpretation of improvement was based on a 
percent of increases requiring the raising of numbers of children above 
the ``below basic'' quartile.
    Now we find that the takeover legislation has ``taken over.'' The 
tests have changed. They now include performance-based scores.
    The fragmentation of the district into Independent Schools, Charter 
Schools, and Reconstituted Schools poses a serious problem for 
districts with extremely mobile student populations. The reporting 
systems, curriculum, length of the school year and schedule of the 
school day are all different.
    School Improvement Grants were grossly inadequate for the 
recommended reforms (e.g. instructional materials, reduction of class 
size, expanded full-day kindergarten etc.).
    The following is just a sample of the scoring problems that may 
well challenge the ``reliability'' and ``validity'' of the tests and 
their scoring.
  --The number of students that fall in the ``pass'' category (or meet 
        the ``proficient'' classification was actually reduced by the 
        Secretary of Education when he increased the ``cut point'' by a 
        quarter standard error.'') This resulted in tens of thousands 
        of students falling into lower performance levels.
  --There are serious questions as to whether or not urban center 
        teachers were properly represented on the teacher committees 
        used to determine questions to be used in determining cut off 
        points.
  --PDE claimed that teachers classified a total of 12,536 students' 
        academic achievement for math and reading combined. Actually, 
        the borderline groups' failure ``cut score'' for 11th grade 
        reading was established on the evaluations of two students 
        statewide made by an underreported number of teachers.
  --There are serious questions concerning the determination of cut off 
        points.
    Finally, the school reforms recommended show no evidence of 
positive effects on student achievements. There was little or no 
careful analysis of the support each reform provided for specific 
schools. There is no data available on the cost of the approaches. 
There is a failure to engage educators, parents and community members 
in decisions about the reforms. There was no attempt made to find an 
approach that matched the goal of the school. Approaches may vary 
considerably in their philosophy, components and ways of working with 
schools. No procedures were used to pinpoint exactly what kind of 
effects on students they can expect if they implement the reform. A 
sampling of schools using the various approaches have had little or no 
success. Staff support is critical to success. The decision to adopt a 
reform approach should involve the entire staff and be supported by a 
large majority.
STATEMENT OF BENNO C. SCHMIDT, JR., CHAIRMAN OF THE 
            BOARD OF DIRECTORS, EDISON SCHOOLS
    Senator Specter. Our next witness is Mr. Benno C. Schmidt, 
chairman of the board of Edison Schools. He served as a law 
clerk to Supreme Court Chief Justice Earl Warren, was dean of 
Columbia's Law School and president of Yale University from 
1986 to 1992. Both his bachelor and law degrees come from Yale. 
Welcome, Mr. Schmidt. The floor is yours.
    Mr. Schmidt. Thank you, Senator Specter, and I want to 
thank you for holding this hearing on what is the most 
important urban public education reform effort anywhere in the 
country, and I think in the history of the last 50 years, and I 
want to thank Congressman Fattah also for being here. I am 
eager to try to answer any of his questions.
    Edison is the largest private manager of public schools in 
the United States. We have 136 partnership schools. We always 
work in partnerships with local school districts or charter 
school boards, or in some cases with States who are asking us 
to help them restructure challenging schools.
    I think the discussion this morning has made pretty clear 
that the Commonwealth of Pennsylvania and Philadelphia in 
particular are really at the epicenter of a great reform 
movement that is taking place all across the United States. It 
is a movement to higher standards, to stricter accountability, 
and to a strong focus on the problem of equality of educational 
opportunity and, in particular, equality of educational 
opportunity for children who are going to school in our great 
urban public education systems.
    Senator, we believe that Edison's educational program, 
there are many fine educational programs and many fine school 
reform efforts underway in the United States. I think no one 
would want to say that they have the answer, or a patent on the 
best possible program, but I do believe that the basic 
educational program that you would find in Edison schools lines 
up very, very well with the basic policies of the No Child Left 
Behind Act.
    Ours is a program based on high standards explicitly laid 
out in over 20 different areas of the curriculum. We have tried 
to do careful research to provide a curriculum that has 
actually proven its ability to bring children to the 
achievement of very high standards. We know that successful 
schools depend above all on successful and energetic teachers, 
and ours is a program that tries to support our teachers with 
very careful professional development and training, with 
assessments that can help them understand exactly what 
challenges they face with their individual students.
    It is a program that is fully accountable and grounded in 
continuing assessment, and the effort of continuing 
improvement, and it is a program that makes an effort to 
integrate the kind of technology in the schools that young 
people will find when they enter the world of work as adults.
    We would be honored to be a partner in the Commonwealth and 
the City of Philadelphia's efforts to bring renewal, to bring 
new innovative programs, to broaden the choices available for 
students and teachers in Philadelphia, and we hope to be part 
of this great enterprise that is taking place here in 
Philadelphia. This has extraordinary significance, Mr. 
Chairman, not only for the children of Philadelphia but I think 
the entire country is watching Philadelphia as hopefully a 
model of constructive change for the improvement of urban 
public education.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Benno Schmidt
    Mr. Chairman, members of the Committee, my name is Benno Schmidt, 
and I am the Chairman of Edison Schools. Thank you very much for your 
kind invitation to testify on Pennsylvania's Education Empowerment Act, 
and the challenges we face as we strive to improve student achievement 
in Pennsylvania. I also look forward to sharing with you my thoughts on 
how Edison schools and the Commonwealth of Pennsylvania are uniquely 
situated to accomplish the goals of the ``No Child Left Behind'' Act 
signed by President Bush earlier this year.
    Let me begin by highlighting the work we do at Edison Schools. 
Edison is the nation's largest private operator of public schools 
serving students from kindergarten through 12th grade. All of the 
schools that Edison serves are public schools. We contract with local 
school districts and public charter school boards to assume educational 
and operational responsibility for individual schools in return for 
per-pupil funding that is generally comparable to funding for other 
public schools in that area. Our schools are called partnership schools 
because collaboration with public school authorities, families and 
local communities is fundamental to our success. Indeed local control 
is one of the four basic principles of the ``No Child Left Behind'' 
Act.
    Over the course of three years of intensive research at a cost of 
$40 million, Edison's team of leading educators, scholars and financial 
experts developed an innovative, research-backed curriculum and school 
design. We opened our first four schools in August 1995, and have grown 
rapidly in every subsequent year. Today we serve approximately 75,000 
students in 136 schools in 22 states. We operate a total of 12 schools 
in Pennsylvania, in Philadelphia, Phoenixville, Chester and York. We 
are in discussions with the School Reform Commission to operate at 
least 20 additional schools in Philadelphia, along with serving as the 
lead consultant to the district's central office.
    With the adoption of the ``Education Empowerment Act'' in the year 
2000, Pennsylvania became a national leader in the effort to confront 
the chronic underperformance that characterizes too many of our 
nation's public schools. That Act designates any school with more than 
50 percent of its children scoring at the ``below basic'' level on the 
Pennsylvania System of Student Assessment (PSSA) as an ``Empowerment 
School''. The local board of education must then work with educators, 
parents, and community leaders to craft a plan that will result in 
significant improvement in student performance. Local boards are given 
considerable flexibility in crafting these Improvement Plans. Among 
other things, they can:
  --Transform schools into Independent Schools with their own 
        governance boards;
  --Reconstitute faculties; or
  --Employ private Education Management Organizations to transform 
        school operations.
    If student performance in an Empowerment School does not improve to 
minimum levels within three years, the Commonwealth can then assume 
responsibility for the governance of the district, through the 
appointment of a state board of control.
    Pennsylvania's Empowerment legislation provided both the incentives 
and the flexibility that has led to dramatic reform in Chester--where 
Edison manages nine of the district's ten public schools--and in 
Philadelphia--where the School Reform Commission has placed 42 of the 
city's lowest performing schools under the care of outside managers--
including Edison.
    As we implement our reform plans in each of these Pennsylvania 
school districts, we hope to have Edison schools serve as prototypes 
for the implementation of the new Federal education law known as ``No 
Child Left Behind.'' We too are intensely dedicated to the success of 
every child, and our approach has a tremendous amount in common with 
this new Federal law. Briefly, let me share with you some examples of 
how our model is uniquely situated to comply with the ``No Child Left 
Behind'' Act:
  --Scientifically-Based Research and Teaching Methods that are Proven 
        to Work.--We use instruction methods derived from systematic, 
        scientifically-based research. For example, our elementary 
        schools implement ``Success for All,'' a K-5 reading program 
        developed at Johns Hopkins University and refined through 
        experimental studies. In addition, our schools generally use 
        mathematics programs developed though years of research by the 
        University of Chicago Mathematics Project. Students in our 
        elementary schools receive 60 minutes of math and 90 minutes of 
        reading instruction every day.
  --High Academic Standards.--Our curriculum is rich in content and is 
        guided by detailed and demanding student academic standards 
        that specify what students should know and be able to do at the 
        end of each school year in twenty fields of study.
  --Regular Assessments of Student Performance.--We routinely monitor 
        our students' progress against states' academic standards and 
        assessments, and we believe our students are well prepared for 
        the state and local tests for which we are held accountable. 
        Edison features a unique report card, known as a Quarterly 
        Learning Contract. In contrast to the typical report card that 
        grades performance relative to each teacher's subjective 
        classroom standards, the QLC is a narrative progress report 
        that tracks achievement against academic standards and sets 
        specific goals for students. Each quarter, every Edison 
        student, his teacher-adviser and the student's family meet to 
        discuss and complete a Quarterly Learning Contract. More 
        recently, we have introduced a benchmark assessment system that 
        provides detailed monthly measurements of student progress in 
        the basic skills. And because the system is technology based, 
        teachers walk away from each assessment with an analysis of 
        student performance that can form the basis for tomorrow's 
        lesson plan, and principals have a up-to-date picture of what 
        is going on in their schools. Meaningful assessment that 
        provides for stronger accountability is critical to our 
        mission, and one of the four basic principles of the ``No Child 
        Left Behind'' Act.
  --Charter Schools.--As the nation's largest private operator of 
        public charter schools, Edison is ``on the front lines'' of the 
        charter school movement throughout the United States.
  --Professional Development for Teachers.--Edison emphasizes 
        professional growth for teachers through a commitment to 
        training, career advancement, and a school management structure 
        that allows teachers to participate in the leadership of their 
        schools. Typically, we provide educators with four weeks of 
        sustained training before a school first opens under Edison 
        management and additional support and training during the year. 
        In addition, teachers have two 45-minutes periods every day for 
        professional purposes: one for team planning and professional 
        development, and one for individual planning. And our school 
        calendars provide for several days of ongoing training each 
        year.
  --Emphasis on Core Values.--Our education program is built around a 
        defined set of core values: wisdom, justice, courage, 
        compassion, hope, respect, responsibility, and integrity. These 
        values help us promote strong character in our students and a 
        positive learning environment in our schools. These values are 
        integrated into instruction and school life at every grade 
        level. Additionally, Edison invests heavily in creating a safe, 
        clean and orderly school setting conducive to learning.
  --Integration of Technology into the Learning Environment.--Edison 
        schools are technologically rich environments aimed at 
        preparing students for the workplaces of the future. We provide 
        each of our teachers with a laptop computer and each school 
        with a generous supply of computers and other instructional 
        technology. We provide every family with a student in third 
        grade and beyond a computer and a modem for use at home, 
        following the first year of their schools' operation. To 
        encourage communication and enable the sharing of best 
        practices, teachers, students, and parents are electronically 
        connected via The Common, Edison's national Internet-based 
        information system.
  --Immediate and Comprehensive School Reform.--For the schools we 
        opened in the fall of 2000, we made an average initial 
        investment of approximately $2,500 per student to purchase 
        computers and other technology, implement our curriculum, and 
        train new teachers. In contrast to the small steps that school 
        reform usually takes, our vigorous approach provides schools 
        with an opportunity for schools immediate and comprehensive 
        change.
    Mr. Chairman, these are but a few of examples of why we believe 
Edison Schools is uniquely positioned to be a leader in the 
implementation of the new Federal education law. We are very proud of 
the work we do to educate children, and we truly believe our efforts in 
Philadelphia, Chester, Phoenixville and York will prove to be a 
resounding success if we are provided the ability to fully implement 
our extensive plans for reform.
    Thank you for your invitation to testify, and I am pleased to 
answer any questions you may have.

    Senator Specter. Thank you very much, Mr. Schmidt.
    Mr. Nevels, you headed up the effort in Chester-Upland. 
What were the results there, and how would you compare the 
scope of that undertaking with your current undertaking in the 
City of Philadelphia?
    Mr. Nevels. Senator, I am prone to make a quantitative 
comparison. Chester-Upland School District is 35 times smaller 
than the School District of Philadelphia, with as equally 
complex issues, of course, but Philadelphia is on a far larger 
scale.
    In direct response to your question about how the results 
were in Chester-Upland, I was there for approximately 4 years 
on an empowerment board with a structure, a legislative 
structure very different from Act 46. What we saw there was, we 
saw improvement in scores over that 4-year period. We also saw 
a situation in which financial stability was there, when upon 
my departure my colleagues Chuck Bennoni and Dr. Person worked 
very, very hard to make sure that those improvements were in 
place, and there are processes that I believe still remain to 
enhance that improvement.
    Senator Specter. Well, Mr. Nevels, there is not time enough 
this morning to go into great detail as to your current 
undertaking, but I appreciated your coming to Washington, and 
we are available to you as you work through the process. My 
staff and I will be working with you, so as issues arise where 
you think we might be helpful. We would also appreciate being 
apprised as to how it is going. We want to stay current with 
the system.
    Mr. Nevels. Thank you, Senator. I look forward to that as 
well, as well as ongoing conversations with your colleagues in 
both delegations.
    Senator Specter. Ms. Phillips, your testimony was very 
impressive. How do you account for the spectacular results in 
Lancaster?
    Ms. Phillips. I think like the State we believe standards 
assessments and accountability are strong cornerstones of 
school improvement, but we also believe you have to make a 
serious and sustained investment in those things that work, 
like I said earlier, early childhood education, intensive 
training and support for teachers, good, proven curriculum. 
Those things in our estimation are not sort of rocket science. 
They are just what we know works, and if they are well-
implemented and well-invested-in you get gains in performance, 
you get serious gains in performance.
    Senator Specter. Dr. Kitch, congratulations on getting 
Steelton off the list. I used to live in Steelton for a short 
time, when I was assigned to Olmstead Air Force Base. Have you 
ever heard of that?
    Dr. Kitch. Yes, Senator. My father used to work there.
    Senator Specter. You say your grandfather used to work 
there?
    Dr. Kitch. My father.
    Senator Specter. Congressman Fattah was interested in the 
ancient history of my living in Steelton. He wants to know if 
it was after Kansas or before Kansas. I was born in Kansas. One 
of the lawyers I work with saw my resume. I was born in 
Wichita, and he said to me, where was your mother on her way to 
at the time.
    Just one question for you, Dr. Kitch. You were eligible to 
get off, and you stayed on and got $450,000 extra. How did you 
manage that?
    Dr. Kitch. Well, as we looked at our dire constraints 
financially in our district, as I submitted to you in our 
testimony how poor our families are----
    Senator Specter. You are not being responsive. How did the 
State let you get away with that extra $450,000.
    Dr. Kitch. Well, it is one where we have a very good 
Governor who is also a Roller fan. We won a State title in 
2000, and one in 1998. We are running a single A school with 70 
seniors graduating a year, and since he is a Roller fan and 
gets preferential treatment, as you or Congressman Fattah would 
if you would ever like to see our games, they looked at us not 
only academically as a challenged district, but we knew if we 
had the money to get new computers, to get the textbooks, to do 
the staff development for everyone, we showed them that we 
could do those things.
    And, indeed, we were the first one--and I told former 
Governor Tom Ridge who came to our school the second day of 
school that we would like to be the first district and maybe 
Vicki's district the second to get off the empowerment list, 
but to stay on is somewhat of a stigma, but at the same time if 
you look at that type of money, our Bethlehem Steel at that 
time did not pay $330,000 in taxes. This year we expect the 
same thing.
    Senator Specter. Are they going to let you stay on longer 
and let you get more money, even though you do not belong on 
the list, and you have a right to remain silent on that.
    Ms. Jones-Johnson, what do you think of the achievements of 
Lancaster? I quite agree with you. You need standards, and you 
need procedures, but what is your evaluation as to what has 
happened, say, with both Lancaster and Steelton, to the extent 
you have had an opportunity to observe those?
    Ms. Jones-Johnson. It is difficult to comment specifically 
on those school districts, but as you are aware, it is easy to 
raise test scores and still not improve student achievement.
    Sometimes you can change the curriculum so that you are 
teaching more to the tests, and we have to move beyond that, 
and frequently what you will find is that schools will improve 
their test scores for a couple of years and then they will 
settle right back down into the same level they were 
previously, as you are aware if you track the records of some 
of the schools in Philadelphia that have improved test scores. 
Test scores will go up one year, and then test scores will go 
down.
    But I did not have an opportunity to say--what I would like 
to say is that the funding we received from the empowerment act 
was inadequate. You are sitting in Philadelphia, which is the 
hot spot for lead poisoning in the country, and there was an 
in-depth study done of Philadelphia's children in 1995 and 
1996. In one of the schools that was identified as an 
empowerment school, 66 percent of the first graders had 
elevated blood lead levels. There is nothing you can do in 
terms of teaching to the test to change that. If you do not do 
anything else, if you did something about the extremely high 
blood lead levels of the children in Philadelphia, I guarantee 
you, test scores would go up.
    Senator Specter. Well, you put your finger on a critical 
factor, and it is certainly multifaceted on the problems faced 
by the city here.
    Mr. Schmidt, what would you point to as the greatest 
achievement of Edison, and what would you point to, if you care 
to answer, as the least successful effort of Edison?
    Mr. Schmidt. Well, Senator, my own belief is that while 
test scores are certainly not by any means the full measure of 
a successful school, I think at least intelligently designed 
tests, and I think the PSSA now is, can often give you very 
important information about schools, and my own opinion--and 
this is the policy reflected in the No Child Left Behind Act as 
well, I believe, sir--is if you had to say a single most 
important measure of a school's success, it is whether it is 
moving children up the ladder of achievement. It is not where a 
school is at any point in time.
    A school that has taken--in the 20 schools that there has 
been some discussion that Edison might have an involvement with 
in Philadelphia, about 80 percent of the children in those 
schools are below basic level, for example, in math, about 70 
percent below basic level in reading. Now, in that sort of a 
school, I believe that if you can move the children up the 
ladder, up to basic, to proficient, and so on, at a rate of 5 
or 6 percent gains a year, I believe that is a highly 
successful school.
    Therefore, I would judge the kind of results that you heard 
about in the two districts that you just heard about as 
spectacularly successful, but the annual progress is the key 
measure.
    Senator Specter. Come to my questions. What is Edison's 
greatest success, and what is the other end of the spectrum?
    Mr. Schmidt. I think the work we do is hard, and I do not 
think miracles happen very often. I am very proud of the fact 
that if you look across all of our schools, the young people in 
our schools have been moving up the achievement ladder, on 
average, every year--now, this is on average--at about 6 
percent a year on criterion-referenced tests, and a little 
under 5 percent a year on norm-referenced tests.
    I think that kind of average gain, if it is sustained--and 
I want to repeat, that is an average annual gain of all of the 
schools that have taken tests from year to year. That kind of 
gain will change the lives of children in those schools.
    I would say our greatest failure is that we have not been 
by any means perfectly consistent in achieving those gains by 
our measure about, a little over 80 percent of our schools are 
doing better since we took them over, about 10 percent are not. 
About 5 percent, or a few more than that, have been flat.
    So what we are trying to do, Senator, is focus on two 
things, raising that average level of achievement--we would 
like to try to get it beyond the 4.7 percent on the norm 
reference and the 5.7 percent criterion. We would like to move 
it up to 7, 8, 9 percent annual gains, and we would like to be 
able to be more consistent so that we would have over 90 
percent of our schools performing very well in that way, rather 
than where we are now, a little over 80.
    Those would be my answers.
    Senator Specter. Thank you, Mr. Schmidt.
    Congressman Fattah.
    Mr. Fattah. Thank you, Senator. Let me compliment the 
panel, and let me say that I am fully supportive of the School 
Reform Commission and its work with one exception, which is 
Edison, and I want to focus a couple of my questions to the 
chairman.
    You say that the only fair judgment of a school is whether 
the students are progressing year-to-year, not where the 
children are at a static moment, is that correct? Didn't you 
just say that?
    Mr. Schmidt. I said it is the most important. I said that 
there are a lot of measures of a good school. The one that is 
the most important, in my view, is that annual student 
progress.
    Mr. Fattah. So Mr. Chairman, when the Commonwealth gave 
your company $2.7 million to study the Philadelphia School 
District, why is it that you rejected that logic and Edison 
submitted a report looking only at where the Philadelphia 
schools were in terms of overall performance, rejected the 
laying out for the Governor the annual progress that was being 
made, which you say is the most important, legitimate, 
authentic way to judge whether a school is being properly 
reformed and improved?
    Mr. Schmidt. Well, by our measure the Philadelphia School 
System has been improving its performance over the last 4 years 
at about 1.1 percent a year on criterion-referenced tests,
    Mr. Fattah. I am talking about the PSSA's.
    Mr. Schmidt. On the PSSA it is about 1.7, and the 20 
schools that there has been discussion with the School Reform 
Commission, the average annual improvement on the PSSA's in 
those 30 schools is .34 percent.
    Mr. Fattah. Let me try to rephrase my question. I am 
talking about the actual report you were paid to do, $2.7 
million to review the entire Philadelphia School District. The 
judgment of Edison has submitted to the Commonwealth that this 
was the worst urban school district in the country, that what 
the problem was is that the vast majority of the kids here were 
not scoring at grade level, and you rejected what you have now 
implied is a more appropriate way to analyze our schools, which 
is whether or not these schools are making progress.
    Let me give you an example. Elementary schools in our State 
were outpacing, in terms of improvement, annually those 
throughout the State. They were lapping, then there was a 13-
point improvement, versus a 2-percent State average 
improvement, so my point to you is why the report that you 
submitted on Philadelphia made a judgment on one set of facts 
in terms of looking at schools, versus what you now suggested 
to this committee is the more appropriate way to review whether 
schools are making progress.
    Mr. Schmidt. Congressman, I think reasonable people can 
differ about what counts as adequate progress, but in my 
opinion, a district where the levels of achievement and 
graduation rates and other indicators indicate that there is 
quite a lot of room for improvement----
    Mr. Fattah. I am not trying to make this difficult, but if 
you could tell me----
    Mr. Schmidt. But a district improving by only 1 percentage 
point a year or so on the PSSA test is not a district that is 
improving fast enough. That is a district that will take 50 
years to move a child----
    Mr. Fattah. I want to make sure I am communicating. I will 
just put it in the record. Maybe you can submit it to the 
Senator. What I am saying is that what you said in response to 
the Senator's point was that the fairest way to judge a school 
was whether the students were improving year to year.
    Mr. Schmidt. That is my view.
    Mr. Fattah. What I am suggesting to you is, the Edison 
report on the Philadelphia School District took a different 
judgment path, which was to say where these schools are at at 
this moment, and all I am saying is, those two things are in 
contradiction, and reasonable people can disagree. If you are 
representing Edison, my point is that you seem to be 
disagreeing with yourself in terms of this analysis, but I want 
to move to another question, and you can just submit it, and 
that will be fine.
    Senator Specter. Let him respond.
    Mr. Schmidt. Congressman, the published achievement records 
by the Commonwealth of Pennsylvania indicate that the 
Philadelphia School System over the last 4 years has improved 
at an annual average rate of 1.1 percent on criterion-
referenced tests. That is obviously better than a negative 
rate, and that is improvement.
    The question is, is that enough improvement to serve the 
children in the Philadelphia School System and in particular in 
the most troubled schools, where the improvement is not 1 
percent a year but .3 of 1 percent, and I would argue that that 
improvement is not sufficient.
    Mr. Fattah. Let me move to a different question, then. 
Wichita, Kansas. The Senator is familiar with this as a place 
you have been for 5 or 6 years running schools, and now the 
school board has decided to no longer have your services 
because there was a significant decrease in the improvement of 
the children there.
    And I know that you are not perfect, and you stated that, 
but looking at Wichita, looking at Macon, Georgia, where you 
have run two schools there for 5 years, looking at the Miami-
Dade County report, the evaluation of the school district--they 
hired you. You have been running the schools. They even have 
extended your contract, so these are not Edison critics. Their 
evaluation found that at no time--this is a verbatim quote from 
the report--at no time did the children in the Edison schools 
show superior academic progress to other schools in Miami-Dade.
    In Dallas, where you have been hired to run seven schools, 
an analysis and evaluation by the Dallas Independent School 
District found--verbatim, this is the quotation--that out of 49 
indices, or 42 of them, the Edison students scored more poorly 
than other similarly situated students. In Austin there was 
just a review.
    So my concern is about not your for-profit status or your 
stock value or any of this. My concern is on this question of 
student achievement, and I think we have a difference in terms 
of our view of this, and maybe let me try it like this. In all 
of the 23 or 24 States you are operating in, how many schools 
do you now run today that 51 percent, 50 plus 1 percent of the 
children score at a proficient level on the State assessment 
tool?
    Mr. Schmidt. I will have to give you that data. The data I 
have in my head has to do with what you were just saying, 
namely, what is the rate of annual progress, and I have all of 
that data actually right here. I can get you the other data 
very easily. I just have to get back to my computer.
    Mr. Fattah. Do you think there are a large number of your 
schools in which that is the case?
    Mr. Schmidt. Here is the problem, Congressman, and I think 
you probably know this, we are generally invited in as is the 
discussion in Philadelphia, to come into schools that are very 
much at the lower and in many cases the lowest end of the 
achievement ladder in that school district, so our typical 
school when we come in is in the bottom quartile.
    Now, as we move that up the ladder at the rates that I 
described, which is about 5 to 6 percent a year, you will 
understand that if you take a child at the 20th percent and you 
can move that child up the ladder 5 percent a year, it is going 
to take you 6 years before that child hits the 50th percent.
    Mr. Fattah. In the schools you have run for 6 years, or 5 
years, or 4 years----
    Mr. Schmidt. I can get you that data, too.
    Mr. Fattah [continuing]. At which the majority of the 
students score at or above the State assessment tests in those 
States.
    Then the other point I would make to you is, some of the 
schools you run fit the category you describe. Many of the 
schools you run are charter schools that have just started, 
just been created. The only education that the children have 
ever benefitted by is that Edison curriculum, Edison teachers, 
and like, for instance, Granville, Trenton, New Jersey, where 
as I would understand it you now will no longer be operating 
the Granville Charter School there, you have been running it 
for 6 years, and the State assessment----
    Mr. Schmidt. 3, I think.
    Mr. Fattah. It is 6, but that is okay. The State 
assessment, which was done by KPMG, which is one of the 
consultants that have been hired by the School Reform 
Commission, did an analysis that showed that the school test 
scores were deplorable.
    So my point to you is, I am concerned about whether or not 
you can improve these students in terms of their achievement. 
If you can, I would be your biggest fan. I am not convinced of 
it. I cannot find anywhere on the public record any independent 
analysis. That is, if you look at Western Michigan's report, if 
you look at the Arizona State report, if you look at the school 
districts where you operate now and their evaluations, if you 
look at the State assessments, nowhere can I find that Edison 
is improving these students' ability, except when I look at the 
Edison documents.
    So now, if you can tell the committee, or send to the 
committee, or share with the committee independent reviews and 
analysis that show this, we would be happy, I would be happy to 
review them.
    Mr. Schmidt. Well, Congressman, perhaps you would like to 
take a look at Baltimore. In Baltimore we have been running 
three schools for 2 years, and they have improved in those 2 
years by 32, an average improvement, and those were the three 
worst schools in Baltimore, and they have improved by an 
average of 32 percent points on the Maryland criterion 
reference.
    Senator Specter. Mr. Schmidt, if you want to amplify 
Baltimore, go ahead, but we are going to have to move ahead to 
the next panel, and I would say this, Mr. Schmidt, we would 
like you to give the specifics on the districts which 
Congressman Fattah has raised. You said that you would, and we 
would appreciate that. We do not have the time to go into an 
analysis of each one of these school districts, and Edison has 
been very active. It is important to know this for the record 
as we set the stage for evaluating what Edison is doing here.
    Mr. Schmidt. I completely agree, Senator, and I appreciate 
what Congressman Fattah said, that if we can show him a record 
of strong student progress in our schools, that he would think 
we might have something good to offer.
    Mr. Fattah. Absolutely, and I also, and the Senator knows 
this, I have the GAO, and we will also have that review to look 
at.
    Senator Specter. Congressman Fattah has asked you relevant 
questions. You have given relevant answers, and you ought to 
have the opportunity to supplement it with materials which are 
on your computer. You have a very distinguished record, Mr. 
Schmidt, but your computer has to top you or anyone else.
    [The information follows:]

    Question. In how many of the schools managed by Edison Schools are 
more than 50 percent of the students performing at a proficient level 
on the State assessment tool?
    Answer. Of the 112 Edison Schools that were in existence before 
Edison was hired to offer its services to the schools, 84 percent of 
the schools were achieving below the 50th percent before Edison was 
hired. Eighty-four percent of these schools are ahead of where they 
began. Sixteen percent of these Edison Schools began with the company 
above the 50th percent and they all remain above the 50th percent.
    Of the 69 Edison Schools sites with primary means of accountability 
data--criterion referenced tests or the SAT 9--26 had more than 50 
percent of their students perform at the proficiency level in their 
respective State tests. The schools are listed in the chart below.

----------------------------------------------------------------------------------------------------------------
        1st year with Edison               Grade             School name             State             Test
----------------------------------------------------------------------------------------------------------------
98-99...............................  K-5...........  Kriewald Road Elementary  TX.............  TAAS
                                                       School.
97-98...............................  K-5...........  Elm Creek Elementary      TX.............  TAAS
                                                       School.
99-00...............................  6-8...........  Stewart-Edison Junior     TX.............  TAAS
                                                       Academy.
95-96...............................  K-5...........  Dodge-Edison Elementary   KS.............  WBA
                                                       School.
98-99...............................  K-5...........  Academy-Edison            CO.............  CSAP
                                                       Elementary School.
96-97...............................  6-8...........  Jardine-Edison Junior     KS.............  WBA
                                                       Academy.
97-98...............................  K-5...........  Edison-Ingalls            KS.............  WBA
                                                       Partnership School.
00-01...............................  PK-6..........  Edison-Hernandez Academy  TX.............  TAAS
99-00...............................  K-5...........  Northmoor-Edison School.  IL.............  ISAT
00-01...............................  PK-5..........  Montebello Elementary...  MD.............  CTBS 5
00-01...............................  PK-6..........  Edison-Maple Lawn         TX.............  TAAS
                                                       Academy.
99-00...............................  K-5...........  Swift Creek-Edison        NC.............  NCEOG
                                                       Elementary.
00-01...............................  PK-6..........  Edison-Medrano Academy..  TX.............  TAAS
00-01...............................  PK-6..........  Edison-Runyon Academy...  TX.............  TAAS
98-99...............................  K-8...........  Wintergreen               CT.............  CMT
                                                       Interdistrict Magnet
                                                       School.
98-99...............................  K-8...........  San Jose-Edison Academy.  CA.............  SAT9
00-01...............................  PK-6..........  Edison-Blair Academy....  TX.............  TARS
97-98...............................  6-9...........  Washburn Junior Academy.  MN.............  MBST
00-01...............................  PK-6..........  Edison-Henderson Academy  TX.............  TAAS
98-99...............................  K-8...........  Detroit-Edison Public     MI.............  MEAP
                                                       School Academy.
00-01...............................  PK-6..........  Edison-Titche Academy...  TX.............  TAAS
97-98...............................  K-5...........  Edison-Isley Partnership  KS.............  WBA
                                                       School.
95-96...............................  K-5...........  Dr. Martin Luther King    MI.............  MEAP
                                                       Jr. Academy.
97-98...............................  K-6...........  Detroit Academy of Arts   MI.............  MEAP
                                                       and Sciences.
98-99...............................  K-6...........  Washington-Edison         MI.............  MEAP
                                                       Partnership School.
97-98...............................  K-5...........  Williams-Edison           MI.............  MEAP
                                                       Partnership School.
----------------------------------------------------------------------------------------------------------------

    Question. Please provide independent reviews and analysis that 
shows Edison is improving student achievement.
    Answer. There are currently no independent studies that show Edison 
has not improved student achievement, nor are there any independent 
studies that show Edison has improved student achievement. The Rand 
Corporation is currently conducting the first truly independent study 
of gains by students in schools managed by Edison.

STATEMENT OF ABDUR-RAHIM ISLAM, PRESIDENT AND CEO, 
            UNIVERSAL COMPANIES
    Senator Specter. Mr. Islam has joined us, and we are going 
to include him in the next panel. Thank you all very much. Mr. 
Islam, you stay with us. We would like now to call Mr. Wendell 
Harris, Ms. Stephanie Harris, Ms. Christina Rivera, Ms. 
Margaret Levy, and Mr. Islam we will start with you while they 
join us.
    Mr. Abdur-Rahim Islam, president and CEO of Universal 
Companies, which owns the Universal Institute Charter School, 
also serves on the African American Chamber of Commerce, South 
Philadelphia Coalition, and on the Small Business Support 
Center, children ages 3 to 22--you are going to have a hard 
time topping that as an accomplishment. Mr Islam received his 
bachelor's degree in accounting and finance from La Salle.
    Thank you for joining us, Mr. Islam, and the floor is 
yours.
    Mr. Islam. Good morning, Senator. Good morning, Congressman 
as well. If I could just take my 3 minutes to explain, I guess, 
my role here, just some background, Universal Companies is an 
organization founded by Kenny Gamble, who is a legendary 
songwriter and producer here in Philadelphia, and he has taken 
the initiative to move back to his community in South 
Philadelphia to rebuild that community.
    We have leveraged that commitment, the finances he has put 
into the organization, the acquisition of a number of 
properties, and over 8 years we have become one of the largest 
developers of affordable housing in the City of Philadelphia. 
We operate a workforce development center, one of the largest 
in the State, in the Commonwealth of Pennsylvania, a business 
support center, we operate many retail stores because of the 
lack of small businesses in the community, and we opened a 
charter school, about 3 years.
    We cannot tell you, as educators, that our charter school 
is the premier school in the country, but it has the beginnings 
to get there. We have changed the culture and the environment, 
and now we can begin educating in a way that we believe we can 
educate, but my number one purpose here is to basically say 
what our position is in this whole situation as it relates to 
educational reform.
    We believe that the reason why we are in education reform, 
as private citizens we can no longer sit back and watch the 
derailment of education and the derailment of these communities 
continue. Right now, in our community in South Philadelphia, we 
have almost 70 percent of the families headed by female head of 
households. We have almost 55 percent of the kids dropping out 
of school. Unemployment is just off the record as well, where I 
mean, we have national and city rates at 35 and 40 percent, 
depending on where you are looking at.
    What is more alarming is, this is going to continue, 
because all of these things are interrelated. There is a 
serious, serious crisis between the male and the female, the 
man and the woman in the African American community, and when 
you have 70-percent of the head of households are women--you 
have more women are going to school, getting educated, and 55 
percent are dropping out, 70 percent of those are boys. You 
have more boys going to prison in this area.
    So we do not see any real way that this thing is going to 
change, unless we get ahead of this thing, and that is why we 
are into the education. We did not get into the education 
because we are long-time educators. We are in education because 
the only way we are going to prevent this thing from happening 
is if we get on the front end of this situation.
    So we believe--and we have been pretty focused, because 
there are a lot of fights in this education issue. There is the 
State and the city. There is the Republican and the Democrat. 
There is the unions, there is the school districts. We do not 
want to get into all of these arguments. Our focus is clear. We 
have to be able to manage the education process of these 
schools because we have no confidence in anyone else being able 
to do it for us.
    I will just conclude with this here. In order for you to 
have real education reform, you must have also community 
reform, because these kids are not living in the schools. They 
live in these communities.
    Senator Specter. Thank you very much, Mr. Islam.
STATEMENT OF WENDELL A. HARRIS, PARENT, NORTH ACADEMIC 
            AREA REPRESENTATIVE FOR THE PHILADELPHIA 
            HOME AND SCHOOL COUNCIL, BOARD MEMBER OF 
            THE PARENT UNION FOR PUBLIC SCHOOLS, AND 
            MEMBER OF THE STEERING COMMITTEE, 
            PHILADELPHIANS UNITED TO SUPPORT PUBLIC 
            EDUCATION
    Senator Specter. Our next witness is Mr. Wendell Harris, 
North Academic Area Representative for the Philadelphia Home 
and School Council of the Parent Union for Public Schools, and 
a member of the Steering Committee for Philadelphians United to 
Support Public Education.
    Welcome, Mr. Harris. The floor is yours.
    Mr. Harris. Good morning, Senator Specter. I see some of 
the people have left. I would say good morning to all of the 
distinguished people that came here this morning to discuss 
these relevant issues.
    As you stated, Senator Specter, I am a parent of seven 
children, and I have invested over 18 years personally in the 
schools of Philadelphia as a parent volunteer. I have been in 
the halls. I have even received awards for having been in the 
schools more time than some of the staff. I have put in over 40 
hours a week. I felt this was necessary, and I advocate strong 
parental involvement.
    I, along with many of the parents in this city, feel 
strongly that reform is necessary. We do not feel what is being 
given now is true reform. Many up here have already alluded to 
the empowerment act and to President Bush's Early and Secondary 
Education Act. As you know, within those acts, starting out, 
one of the main principles is accountability, results, 
flexibility, scientific-based research strategies.
    I do not feel that has been implemented in this reform that 
is being undertaken right now in the true sense. I feel there 
has been very little collaboration. If you know about the 
empowerment act, Senator Specter, an empowerment plan here in 
Philadelphia, there was a wide consensus of many different 
people involved in that, community, clergy, politicians, 
students, teachers, parents, best practices.
    To deviate from that, while everybody applauds the 
empowerment act as being something very positive, it is 
somewhat destructive. The Governor made a statement this 
morning about, it is time to stop tinkering with reform and go 
forth, and I say to the Governor, if you are going to go forth 
like a bull in a china shop you are only going to cause more 
damage. If our kids are in any kind of risk, and they are in 
some ways, we need reform, and we need it in effective ways, 
like smaller classroom sizes, qualified teachers--I do not have 
to go through all of the things you already know yourself.
    These things come from resources. It has been more than a 
decade that this district and other rural districts have been 
deprived of the proper resources, because it has been derived 
through property taxes and revenue in that way, and then they 
ask us to compete with districts that have been afforded the 
opportunity to have the proper resources, and have the funds to 
initiative what is real reform.
    All I can say to you, Senator, and anybody else here is 
that we love our children, and we are the most impacted, the 
teachers, the parents, the community and the students. If we 
are not part of the collaboration, and true collaboration from 
the ground up, then it is not going to work, in this city or in 
any other city, and where it has worked, it has worked because 
of that collaboration.
    Thank you.
    Senator Specter. Thank you very much, Mr. Harris. We very 
much appreciate your comments. We wanted at this hearing to 
hear from all facets of the community, and we acknowledge the 
representation you have had in the past.
STATEMENT OF STEPHANIE OLIVER, STUDENT, UNIVERSITY CITY 
            HIGH SCHOOL
    Senator Specter. Ms. Stephanie Oliver is a student at 
University City High School in West Philadelphia, attended the 
public schools for 12 years, is the founder of the Project 
Care, a children's literacy program, and is a member of the 
National Honor Society and Who's Who among America's high 
school students. Ms. Oliver plans to attend the University of 
Pittsburgh this fall.
    Let us hear the student's point of view, Ms. Oliver.
    Ms. Oliver. In my personal experience with the Philadelphia 
School District, I have had some very good experiences. I am 
one of the lucky children who is able to say that I have had 
great teachers through my entire 12 years.
    However, I do also have a younger sister who is a part of 
the Philadelphia School District who does not have that same 
experience. She is currently in the sixth grade, and my mother 
is one of those parents who goes up to the school every week to 
go talk to the teacher and see how the child is doing, and 
every time my mother went up there, the teacher would never 
report to her that my sister was failing. My mother always 
asked for her class work and the teacher said, don't worry 
about it, she's doing fine, and so she receives her report 
card, when she had all F's on her report card.
    Now, I look at the situation and I think who is to blame? 
My mother is doing her job. The parent is doing her job. The 
teacher is telling the parent a different situation. However, 
the teacher is failing in some situations.
    Yes, my little sister is accountable for a lot of it, but 
who do we actually go to in situations like this, and this is a 
part of the reform. You need a parent, as well as a teacher, as 
well as the student, to make a true change in the school 
district, and through my literacy program I find that we work 
with over--I started in September of 1999, and we have worked 
with over 500 school district students to help improve their 
PSSA scores, to help improve their regular grades, and it takes 
me to go up to the school, to go up to the teachers, to hold 
conferences with the parent as well as the child, and tell 
them, this is what needs to be done, and if you cannot get all 
three of them together, then no reform will work.
    It does not matter if you just have teachers on a level, 
because after that 6 hours of class, that child must return 
back home to their parent, they must go back to their 
community, so I do agree with Mr. Islam when he said you cannot 
have school reform unless you have community reform, and that 
is the only way that I believe this will work.
    Senator Specter. Thank you very much, Ms. Oliver.
STATEMENT OF CHRISTINA RIVERA, STUDENT, MASTBAUM HIGH 
            SCHOOL, PHILADELPHIA, PA
    Senator Specter. We next call on Ms. Christina Rivera, a 
17-year-old student at Mastbaum High School president of the 
ASPIA Club Federation which helps communities improve their 
local schools. Welcome, Ms. Rivera. We look forward to your 
testimony.
    Ms. Rivera. I agree on much of what Ms. Oliver had to say, 
but I also feel as though the community plays a part and you 
just cannot give students over to like, let us say, to the 
Edison Company, who does not understand our community and our 
children that go there.
    You cannot just bring in a company that has no knowledge of 
our students' concerns and the problems they have, and it is 
like Edison themselves have their own problem with their own 
financial thing, because I mean, the stocks are down at $2.6, 
but they are trying to come into our community and, like, 
parents are fighting and the community is fighting not for 
privatization, we are not against reform, but we are against 
privatization. Why try to privatize our public schools instead 
of helping reform them, and it is like I said, why not fund, 
sponsor, and give more attention and after-school programs to 
our children, instead of trying to come in and privatize.
    That is all. Thank you.
    Senator Specter. Thank you very much, Ms. Rivera.
STATEMENT OF MARGARET LEVY, PARENT OF TWO AND 
            ENTREPRENEUR, PHILADELPHIA, PA, FEDERATION 
            OF TEACHERS
    Senator Specter. Next, Ms. Margaret Levy, parent of two 
Philadelphia high school students, president of the Home and 
School Association and Volunteers to Develop School Safety and 
Discipline.
    Welcome, Ms. Levy. We look forward to your testimony.
    Ms. Levy. It is always a tough act to follow students, 
because they are so eloquent and they speak so well on various 
different issues. I do want to thank you for giving us this 
opportunity to speak with you, because a lot of times the 
people that make the policies do not really know what it is 
like in the field, and I do appreciate that you give us that 
opportunity.
    I am a parent, and I have been a parent of a public school 
kid for 12 years. My son is graduating this year from high 
school. Of the 12 years that I have been in the system, I have 
always worked in the school, and now I am the president of the 
Home and School Association.
    There has to be a marriage between the home and the school. 
A child spends 35 hours in school every week, and 133 hours 
outside of school. Whatever gains are made in the school can be 
lost when the child is not in school, especially when there is 
no support.
    The dream that I have with the school reform situation is 
to have communications between the school and the home in a way 
that is going to effectively help the work of the students, let 
them stay in school, make them want to stay in school, make 
them want to go to school, rather than just going to school for 
the sake of just being there. You have to have support from the 
home. You have to have a primary care person that is going to 
really take care of this child, whether it is the parent, the 
guardian, or a community person or what-not. The kid has to 
know that someone is batting for them.
    We also have a problem with, if we have this relationship 
that--we have a very transient situation here. The kids are 
going to go to school, they are going to graduate, they are 
going to finish up, they are going to leave the school, move on 
to middle school, move on to high school. You also have the 
transient population in the staff.
    So I do not know how it is going to work, to really have an 
established situation, and of course there are schools where 
you have to identify the parents who are going to lead the 
school, and you have to have the support from the school. Some 
schools do not want to have that kind of support, so I guess we 
need help in getting this sort of thing going.
    Thank you.
    Senator Specter. Well, thank you very much for your 
testimony. We will make Mr. Schmidt aware of what you have 
testified to, because this panel is designed to give other 
inputs from the community, from people who are in the school 
associations. A sort of watch-dog as Mr. Harris is, and 
students, as Ms. Oliver and Ms. Rivera are, and parents, as Ms. 
Levy is.
    Ms. Rivera, I think you raise a very good question that 
Edison has no knowledge of the area, and that is why I wish Mr. 
Schmidt had stayed to hear your testimony, but Mr. Islam has a 
good answer to that, at least in part. We have 42 schools taken 
over, 20 are from Edison but the majority, 22, are from other 
locales. Mr. Islam, I have been with you in your community and 
walked down South Street with you and walked over to your 
chartered school. Can you give Ms. Rivera some assurance that, 
at least speaking for Universal Companies, that you know the 
community?
    Mr. Islam. Absolutely. I think it is very important. I 
think, again, my response to the education is, because we live 
in the community--I live at 15th and Christian, Mr. Gamble 
lives at 15th and Christian, so you really know the issues of 
the community when you live in that community. We do not go 
down to South Philadelphia, we do not work there, we live 
there, as a part of our life.
    So I think the concept of educational reform must start 
with community reform, and I think that starting with community 
reform, you have to live there. I do not really know what all 
of the other organizations are doing or what their 
methodologies are, but I know what we believe are key and very 
instrumental in being successful for us, and that is being a 
part, understanding the nuances of the community, understanding 
the challenges, because you really do not understand the 
challenges in these communities unless you live there.
    When you start seeing some of the conditions, you hear 
about some of the conditions, you might even believe or think 
that people want to live in that condition, but in reality they 
do not. I think most people want a better quality of life. Most 
people want the best of life, but they just do not know how to 
do it, and what we found in living in these communities is 
finding out that with the right leadership, the right 
attention, and the right compassion, and getting the key 
people, professionals around you, you can make a difference, 
but it starts with living in that community.
    Senator Specter. Ms. Rivera, may I ask you what area you 
live in? I will not ask your address, specifically.
    Ms. Rivera. I live in the North Philadelphia area.
    Senator Specter. Well, you have Temple University taking 
over some schools there, and there is a lot of community 
outreach. Of course, I was District Attorney in the city, 
Assistant DA and then District Attorney, and have traveled 
through the city very, very extensively. My wife was a school 
teacher at Kenderton, she taught the third grade. It has been a 
while, but we have had some direct contact.
    Do you have some assurance with Temple and Penn, which have 
community outreach, Penn in West Philadelphia, Temple in North 
Philadelphia, that there is some community understanding?
    Ms. Rivera. Excuse me.
    Senator Specter. Well, do you think the fact that--you had 
made a comment about this--Edison has no knowledge of the area, 
but 22 of the schools are being taken over by agencies or 
institutions which are in the community.
    Ms. Rivera. Yes, but the majority of schools being taken 
over is by Edison, and it is in our area.
    Senator Specter. Well, not quite. It is 20 to 22.
    Mr. Harris, what do you think, when you talk about true 
collaboration? We will be interested to see what Edison does on 
that collaboration, and we want to stay in touch with you. You 
have been a pretty good monitor, sort of an ombudsman with your 
organization. How do you think we might structure some of 
Edison's interaction, and we are prepared to help you on it, to 
get some of that true collaboration?
    Mr. Harris. Well, they are supposedly coming out with some 
suggestions to implement that type of collaboration, and they 
are doing it through advisory boards, but we do not know, to be 
honest with you, Senator, how much real significant input the 
parents of the community will have on these advisory boards. 
Act 46 has pretty much given the SRC a full rein.
    I have a question for you, though, Senator. Really, given 
the broad scope of what they are doing here in Philadelphia 
right now, with the 70 schools and the diverse EMO's, the 
groups that they are advocating to take over, my personal 
position is that it is wrong, and this should be done in a 
cautious fashion because of the sensitivity of the issue, and 
our children's lives are really at stake, and they say they are 
already at risk.
    I feel to do something so broad right now, if there is any 
real negative impact it will really have a devastating effect 
on our children, and I want to know--I know the Governor's 
view, I know the mayor's view, and I respect you, Senator. I 
have followed your very illustrious history throughout the 
years, and I would like your opinion on this particular thing.
    I know we are all advocators of reform. Would you be an 
advocator if it is done in this particular way, in this broad 
fashion, and so many different EMO's?
    Senator Specter. I am glad to respond to your question, Mr. 
Harris. I have not studied the details of precisely what has 
gone on here. That has really been the function of the city and 
the State, but one of the things we are here for is to evaluate 
what they are doing, because we have a Federal involvement as 
to the funding.
    I have been dissatisfied with major school systems in 
America, not just Philadelphia, but Washington and others, as 
they have come before our subcommittee. I have been a leader to 
provide additional funding, but also to see what charter 
schools would do and what privatization would do so that when 
you have had this arrangement hammered out in a very tough 
negotiation between the State and the city, involving the 
Governor and the mayor. I respect the conclusions they come to, 
because and I have not been a party to them, to monitor them or 
to give Monday-morning quarter-backing, but we do intend to 
watch to see what they do on community involvement.
    You make a very valid point, and we intend to see what they 
do, as Ms. Levy has said.
    Mr. Harris. Am I to construe, then, basically, given 
everything you are saying, that you are also saying you are a 
proponent of charter schools, and maybe vouchers?
    Senator Specter. Well, I am not a proponent of charter 
schools, but I am prepared to see what charter schools do.
    Mr. Harris. Well, there is a lot of history already out 
there about what they are doing, and a lot of data and facts 
already out there, if you can look into what is existing 
already, if you are projecting into the future. The problem is 
always there. You can change the address, who is going to try 
to cure it, but the problem is still there, and I look at 
charter schools as a way of keeping the public schools somewhat 
competitive, but I do not see them as an answer or an end 
result.
    Public schools have afforded myself and my family members a 
good education, and it has done well for a lot of people, and I 
think it is a right that we have, and if we have been 
underfunded for whatever reason, the way we derive funds, that 
is something you need to look at, Senator, really hard, because 
we would not even be in this position in the first place if we 
were not underfunded, which makes me think--and it is across 
the Nation. It is across the Nation. It is not just here.
    This is America, and most big, urban cities and rural 
areas, they have the same problem because of being underfunded. 
You go to a suburban area and you find what is working with 
them. The first thing is that they are funded correctly, so 
they can implement real reform, but they do not allow it to 
happen here in these big urban cities and the rural areas, and 
then they come here and say, be accountable.
    Well, I am saying the Government needs to be accountable, 
and the people who are in charge will come up with these ideas 
of how to fund public education. They need to be accountable 
and put in place, and give our children a real chance to have 
equality in education, and a real way to compete in a global 
society. I think we can do this, Senator, if people get for 
real and get away from just making promises and stepping out 
there and saying it can happen, and not giving you the tools to 
make it happen.
    A last thing, I feel an education, especially from K to 12, 
one should make a living, a very good living, but I do not see 
nowhere where one should make a profit because once it comes to 
that formula of for-profits, you have to make decisions to cut 
back here, to give here. I do not see--none of our children 
should be cut back. I think they need every opportunity to 
achieve in a global society, the technology, the staff, the 
teachers, and it can happen.
    Are we really serious about reform, or are we just talking 
rhetoric?
    Senator Specter. Well, thank you very much, Mr. Harris. You 
have a lot of support in the audience.
    Mr. Harris. Well, most of the audience has left. I would 
have had some more if some few people had stayed.
    Senator Specter. Well, nobody here is under subpoena, but I 
have stayed here, Mr. Harris.
    Mr. Harris. I appreciate that. If you had left, I would 
have left.
    Senator Specter. I am prepared to engage in a dialogue and 
answer your questions, and I agree with you. There ought to be 
accountability by the Government, and that is why I am here, 
and I agree with you that there is more funding needed, and 
that is why, when I chaired the appropriations subcommittee 
every year I worked harder to get more funding. That is why, 
when the distressed schools came up last year and I talked to 
the Governor and the mayor and others, I decided to try to get 
an extra $20 million for the State of Pennsylvania, and why I 
am going to be in there pitching as we move forward on what 
this program can do.
    I am sorry, too, the television cameras left. I am sorry, 
too, that some of the people who participated here have left. 
We have got all of this on the record, but they are going to be 
back, and they are going to have to answer questions as to what 
they have done with the Parent-Teachers Association, the point 
Ms. Levy makes, and what they have done with the ombudsmen in 
the school districts. This is only one of many hearings that I 
have had in the period that I have been in the Senate, and I 
have a very heavy investment in this city and in this State and 
in this program, and I am going to be following it very 
closely.

                         CONCLUSION OF HEARING

    We appreciate your coming in, and that concludes our 
hearing.
    [Whereupon, at 12 noon, Monday, May 13, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair]

                                   - 

</pre></body></html>
